      OFFICE OF THE INSPECTOR GENERAL
      UNITED STATES POSTAL SERVICE




April 12, 2013


The Honorable Tom Coburn
Ranking Member
Committee on Homeland Security
 and Governmental Affairs
United States Senate
Washington, DC 20510

ATTN: Katie Bailey

Dear Dr. Coburn:

We received your March 13 letter requesting an Office of Inspector General (OIG)
analysis of the impact of pricing regulations on the financial condition of the U.S. Postal
Service.

You noted that the regulatory framework -- including the price cap based on the
Consumer Price Index (CPI) -- poses significant barriers to timely response to changes
in the Postal Service’s financial condition.

The OIG Risk Analysis Research Center (RARC) examined the regulatory framework
for pricing imposed by the Postal Accountability and Enhancement Act, and evaluated
alternatives that might provide a better fit. The detailed report notes a critical issue with
the price cap: that as mail volume declines, the CPI-only price cap does not reflect the
additional burdens placed on each product to financially support the expanding
network. The report also notes the potential to retain price regulation, but with key
modifications that take into consideration declining volume and the expanding delivery
network.

If you or your staff have further questions related to this inquiry, please contact Wally
Olihovik, Director of Government Relations, at 703-248-2201.

Sincerely,



Mohammad Adra
Assistant Inspector General
 for the Risk Analysis Research Center




1735 N LYNN STREET
ARLINGTON, VA 22209-2020
(703) 248-2100
FAX: (703) 248-4626
   Revisiting the CPI-Only Price Cap Formula




                              April 12, 2013




Prepared by U.S. Postal Service Office of Inspector General
            Report Number: RARC-WP-13-007
U.S. Postal Service Office of Inspector General                                                       April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                          RARC-WP-13-007



                  Revisiting the CPI-Only Price Cap Formula


                                          Executive Summary

The price cap on Postal Service prices was established in the Postal Accountability and
Enhancement Act (PAEA), which was signed into law in 2006. Under the postal price
cap, price increases for each class of market dominant mail are limited by the change in
the Consumer Price Index (CPI). In the absence of competition, the cap is intended to
serve as a surrogate or proxy for competitive market forces by providing a control on
bloat and inefficiency in the Postal Service. In order to keep growth in prices equal to or
under the rate of change in the CPI while earning net income, the Postal Service must
keep its costs down through efficient management of its resources. In the particular
context of the Postal Service, however, countervailing forces have blunted any
efficiency-promoting qualities of the price cap. These forces include, among other
issues, legal hurdles to adjusting the size, configuration, compensation, and deployment
of the workforce, and stakeholder opposition to changes in the processing, delivery, and
retail networks. The result was intensive pressure to economize, but limited ability to do
so.

The Postal Service’s financial viability under the price cap is highly dependent on mail
volume. When the current price cap formula was enacted in 2006, postal volumes had
been trending upward (see Figure 1). Few analysts or policymakers foresaw the recent
steep decline in mail volume, or contemplated the impact on the Postal Service of such
a decline combined with the price cap. In the past few years, Postal Service volume has
experienced unprecedented declines as a consequence of the combined effects of
electronic substitution and the Great Recession. As the Postal Regulatory Commission
(PRC) found in its 2011 Annual Compliance Determination, “[t]he combination of the
price cap and the continuing decline of First Class Mail prevents the Postal Service from
generating sufficient funds from mail users to cover its institutional costs.”1 The financial
situation is a threat to the provision of universal postal service, the traditional
cornerstone of postal policy. In addition, continued losses could place at risk another
foundational principle established by the Postal Reorganization Act of 1970 and
reinforced by the PAEA: that the Postal Service should be self-financing and its costs
shall be covered by ratepayers who send mail, not the taxpayers.


1
  Postal Regulatory Commission, Annual Compliance Determination, Fiscal Year 2011, March 28, 2012
http://www.prc.gov/Docs/81/81771/FY%202011%20ACD.pdf, p. 5. The Postal Service has also been unable to cut
costs at sufficient levels. Opportunities for greater cost cutting and additional efficiency initiatives have been the
subject of several U.S. Postal Service Office of Inspector General reports. See e.g. U.S. Postal Service Office of
Inspector General, A Strategy for a Future Mail Processing & Transportation Network, Report No. RARC-WP-11-006,
July 6, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-006.pdf; Retail and Delivery: Decoupling Could Improve
Service and Lower Costs, Report No. RARC-WP-11-009, September 22, 2011,
http://www.uspsoig.gov/foia_files/RARC-WP-11-009.pdf; and Analyzing the Postal Service’s Retail Network Using an
Objective Modeling Approach; Report No. RARC-WP-10-004, June 14, 2010,
http://www.uspsoig.gov/foia_files/RARC-WP-10-004.pdf.


                                                          ii
U.S. Postal Service Office of Inspector General                                                             April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                                RARC-WP-13-007

                                                 Figure 1: Decline in Mail Volume 2001 – 2012

                              220

                                                                                             PRC implemented the
                              210                                                            price cap in 2007

                              200
    Billions of Mail Pieces




                                                         Recession and electronic
                                                         substitution led to
                              190                        unforeseen decline in mail
                                                         volume
                              180


                              170


                              160


                              150
                                 2001   2002   2003   2004   2005    2006     2007    2008    2009    2010   2011    2012


Source: OIG Analysis of U.S. Postal Service Annual Reports



The present price cap formula was not designed for an environment of falling mail
volumes. An unstated assumption under a traditional price cap is that volume will
remain stable or preferably grow. Growth in the output of products is likely needed to
cover costs, particularly in the case of the Postal Service where the network of delivery
points is expanding. In addition, financial models indicate that a financial failure is likely
in the medium to long term under the price cap as it is presently structured, even if
Congress provides substantial short-term assistance and the Postal Service makes
significant gains in efficiency. These financial models use public data on price elasticity
of demand, as reported by the Postal Service to the PRC, to take into account the
potential impact on mail volume as prices increase.

The fundamental economic issue undermining Postal Service financial stability is
declining economies of density.2 In the postal system, the decline in economies of
density can be seen in the continuing reduction in mail volume (and revenue) per
delivery point. The decline in economies of density is caused by three key drivers: (1)
the increase in the number of delivery points each year; (2) the overall decline in the
volume of mail; and (3) the shift in the mail mix away from high contribution First-Class
Mail to lower contribution types of mail. The number of delivery points has continued to
grow over the past decade. Meanwhile, mail volume has declined. Mail volume in 2012
was 160 billion pieces, a sharp decline from the peak of 213 billion pieces in 2006. In
the decade from 2002 through 2011, First-Class Mail volume declined by 30 billion

2
 Economies of density are similar to, but distinct from, economies of scale. Economies of density describe a
decrease in the unit cost of production caused by an increase in output relative to the size of a given network.


                                                                       iii
U.S. Postal Service Office of Inspector General                                                April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                   RARC-WP-13-007


pieces.3 With fewer pieces of mail and more delivery points, each piece of mail has to
cover a greater share of the institutional costs of the delivery network. The additional
pressure on a product to finance the network as mail volume declines is separate from,
and in addition to, increases in inflation. Furthermore, some postal products are losing
money, and these costs also have to be covered by each remaining piece.

The current price cap formula then, combined with other problems, imperils the Postal
Service’s financial viability. One option for addressing the price cap is to eliminate it
altogether, as some jurisdictions have done in other regulated industries. In the United
Kingdom, postal regulators recently eliminated the majority of their postal price cap, with
positive financial results. On the other hand, if Congress decides to continue using a
price cap, there are alternative approaches that may help the Postal Service improve its
financial condition. Adjustments to the price cap formula that are tailored to current
market conditions could keep many of the benefits of the price cap while more
effectively meeting the statutory objectives of a self-sustaining, financially stable Postal
Service. A tailored cap formula would take into account that mail volumes are expected
to continue to decline and delivery points are expected to continue to increase, further
reducing volume and revenue per delivery point. This paper presents two alternative
cap formulas that keep CPI-based regulation, but also provide adjustments to account
for declining volume and a growing delivery network. Like the current CPI-based price
cap formula, these regulatory instruments are borrowed from modern practices in
energy and telecommunications regulation.

One such instrument is the “revenue-per-delivery-point” (RDP) cap. The RDP cap
formula starts with the CPI but also adjusts for the change in the number of delivery
points and the change in volume per delivery point each year. Larger price increases
would be allowed as volume declines and the number of delivery points rises, while
smaller increases would be mandated when volume is rising. The RDP cap effectively
permits revenue per delivery point, rather than prices, to rise at the same rate as the
CPI. One potential problem with the RDP cap is that it would overcompensate the
Postal Service for declining volume because it does not take into account that “volume
variable” costs go down as mail volume declines. Under the RDP cap, the Postal
Service would perform well financially when volume declines, but would do poorly when
volume rises, because the RDP cap is designed to make up for declining economies of
density, and would restrict prices as volume increases.

We label a second tailored instrument the “hybrid cap,” as it combines the current price
cap and RDP cap approaches. Like the RDP cap, the hybrid cap formula starts with the
CPI, and adjusts for changes in delivery points and volume. The hybrid cap differs from
the RDP cap in that, as volume declines, the hybrid cap would prevent the Postal
Service from using price increases to recover volume variable costs that it should be
reducing. The hybrid cap’s adjustment for declining volume would cover only
institutional costs, which remain even as volume declines. When volume declines, the
hybrid cap results in higher price increases than the current price cap, but lower price

3
 Postal Regulatory Commission, Annual Compliance Determination, Fiscal Year 2011, March 28, 2012
http://www.prc.gov/Docs/81/81771/FY%202011%20ACD.pdf, p. 37.


                                                     iv
U.S. Postal Service Office of Inspector General                                April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                   RARC-WP-13-007


increases than the RDP cap. The CPI-based hybrid cap continues to incentivize
efficiency and reductions in total costs.

While both the RDP and hybrid caps have the potential to result in positive net income if
volume continues to decline, the hybrid cap might be considered the more balanced of
the regulatory instruments. The RDP cap has a potentially unattractive feature in that it
would encourage mail volume reductions. The hybrid cap would allow the Postal
Service’s financial health to improve even if volume continues to decline as expected.
The hybrid cap could also give the Postal Service incentives to maintain productivity
growth (total factor productivity) and efficiency consistent with similar industries in the
general economy. Both of the alternative cap formulas could continue the existing policy
of predictable and stable annual price changes, while still incentivizing optimization of
the network.




                                                  v
U.S. Postal Service Office of Inspector General                                                                   April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                                      RARC-WP-13-007




                                                 Table of Contents

Introduction ..................................................................................................................... 1 

What is the Price Cap?.................................................................................................... 2 
          Incentive Regulation ............................................................................................. 3 

Problems with the Implementation of Postal Price Caps ................................................. 3 
          Under a Price Cap, a Regulated Firm’s Financial Health Is
          Sensitive to Volume Changes............................................................................... 3 
          Declining Economies of Density in the Postal Network ........................................ 4 

An Unforeseen Drop in Mail Volume Undermined Price Regulation in
the United Kingdom ....................................................................................................... 10 

The PAEA Calls for Re-evaluation of the Price Cap ...................................................... 11 

Alternative Incentive Regulation Formulas Tailored to the Current
Postal Market ................................................................................................................ 12 
          Revenue-Per-Delivery-Point Cap ....................................................................... 13 
          Hybrid Cap.......................................................................................................... 14 
          How Price Changes are Calculated under the Different Cap
          Formulas ............................................................................................................ 15 

Policy and Regulatory Flexibility: X-,Y-, and Z- Factors ............................................... 16 

Financial Simulations of Alternative Rate Cap Formulas............................................... 17 

Results of Key Scenarios .............................................................................................. 20 

Efficiency Incentives ...................................................................................................... 24 

Conclusion .................................................................................................................... 26 




                                                                 vi
U.S. Postal Service Office of Inspector General                                                           April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                              RARC-WP-13-007




                                                 Appendices

Appendix A          The Theory of Price Caps, Revenue-per-Customer Caps,
                    and Hybrid Caps .................................................................................. 28 

Appendix B          Counterfactual Analysis of Postal Service Net Income,
                    2007-2010 ........................................................................................... 33 

Appendix C          Simulations of Price Caps, Revenue-per-Delivery Point
                    Caps, and Hybrid Caps, FY 2010 – FY 2015 ...................................... 39 

Appendix D          The Use of X-, Y- and Z-Factors.......................................................... 45 

Appendix E          Economies of Density and Volume Growth ......................................... 54 




                                                          vii
U.S. Postal Service Office of Inspector General                                                               April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                                  RARC-WP-13-007




                                                       Tables

Table 1             Postal Rate Setting and Regulation over the Years............................... 2 

Table 2             The Traditional Price Cap Does Not Directly Account for
                    Network-Related Output Costs ............................................................ 13 

Table 3             Net Income Simulations for a CPI-based Price Cap,
                    Revenue-per-Delivery Point Cap, and Hybrid Cap – Base
                    Case Scenarios ................................................................................... 21 

Table 4             Net Income Simulations for a CPI-based Price Cap,
                    Revenue-per-Delivery Point Cap, and Hybrid Cap – Base
                    Case Scenarios with No Congressional Assistance and
                    No 2010 Rate Adjustments .................................................................. 23 

Table 5             Strengths and Weaknesses of Rate Regulation
                    Instruments with Respect to Efficiency ................................................ 25 

Table 6             Actual Average Annual Percentage Change in Constant
                    Dollar Revenue, Delivery Points, and Constant Dollar
                    Revenue per Delivery Point ................................................................. 35 

Table 7             Actual Net Income under the Price Cap Compared to Net
                    Income If There Had Not Been a Recession-Driven
                    Accelerated Decline in Mail Volume per Delivery Point ....................... 36 

Table 8             Actual Net Income and Net Income under an RDP Cap
                    and a Hybrid Cap................................................................................. 38 

Table 9             Simulation Results for Price Caps, RDP Caps, and Hybrid
                    Caps .................................................................................................... 44 

Table 10            Potential Y-Factors for Exogenous and Recurring Costs .................... 47 

Table 11            Potential Z-Factors for One-Time Cost Changes................................. 49 

Table 12            Surface Transportation Fuel Costs ...................................................... 51 

Table 13            Z-Factor Calculation ............................................................................ 52 

Table 14            Simulation Results with X-, Y-, and Z-Factors ..................................... 53 

Table 15            Postal Service Cost Structure 2010 ..................................................... 54 




                                                            viii
U.S. Postal Service Office of Inspector General                                                               April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                                  RARC-WP-13-007


Table 16            Revenue Shortfall with Baseline Revenue Weighted
                    Volume Projection of 1.9 percent Decline under a CPI-
                    Only Price Cap .................................................................................... 55 

Table 17            Revenue Shortfall Increases with a Pessimistic Revenue
                    Weighted Volume Projection of 4 Percent Decline under a
                    CPI-Only Price Cap ............................................................................. 56 

Table 18            Revenues Cover Costs with an Optimistic Assumption of
                    1.1 Percent Revenue Weighted Volume Growth
                    (Matching Delivery Point Growth) under a CPI-only Price
                    Cap ...................................................................................................... 57 


                                                       Figures

Figure 1            Decline in Mail Volume 2001 – 2012 ..................................................... iii 

Figure 2            Delivery Points 2000 – 2010 .................................................................. 6 

Figure 3            Annual Contribution-Weighted Volume Index ........................................ 7 

Figure 4            Implied Volume Growth Assumption under a CPI Price
                    Cap — Revenue Weighted Volume Grows at Least at the
                    Same Rate as the Network to Cover Costs ........................................... 9 

Figure 5            Baseline Volume Projection of 1.9-Percent Revenue
                    Weighted Volume Decline — Revenues Fall below Costs
                    under CPI-Only Price Cap ................................................................... 10 

Figure 6            Application of (Simplified) Cap Formulas to Calculate a
                    Price Change in Year One ................................................................... 16 




                                                             ix
U.S. Postal Service Office of Inspector General                                                         April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                            RARC-WP-13-007


                  Revisiting the CPI-Only Price Cap Formula


Introduction
From 1971, when the Postal Service began operations as the successor to the cabinet-
level Post Office Department, through 2006, mail volume grew with a few, brief
exceptions.4 This volume growth allowed the Postal Service to finance the continued
expansion of its nationwide network through sales of postal products at prices that were
affordable, yet allowed the Postal Service to meet its financial needs. Postal rates were
subject to review and approval by the Postal Rate Commission (PRC, now named the
Postal Regulatory Commission) through a lengthy process designed to let the Postal
Service break even over time. On average, the Postal Service filed rate cases about
every 3 years; the amount of the rate increase for a particular type or class of mail was
unpredictable as it depended on arguments over postal costs and regulatory debates
over which mailers should bear the increase.

The Postal Accountability and Enhancement Act (PAEA), signed into law in December
2006, streamlined the rate process and introduced into the U.S. postal sector a form of
incentive regulation known as the price cap.5 Rather than a lengthy proceeding that
required the Postal Service and other litigants to present voluminous evidence
defending their views on costs, the new process permitted rate increases that stay
below the price limitation to be approved by the PRC within statutory time limits. The
price cap is an innovation in postal policy that was borrowed from other network
industries where the main operators have significant market power. In markets with little
competition, incentive regulation is meant to encourage the regulated service provider
to control costs and manage the business efficiently. In contrast to what was seen to be
a pending vicious cycle of increasing costs, increasing prices, and decreasing volume,
the postal price cap was intended to bring about a virtuous cycle of controlled costs,
predictable smaller price increases, and increasing volume.6 Table 1 summarizes
current and historical methods of setting and regulating postal rates.

The PAEA also provides for periodic reviews of the new regulatory system it
established.7 The goal of the reviews is to determine whether any improvements can be
made to the regulatory system.


4
  Volume declined in 1975, 1990, and 2002-2003 following the September 11, 2001, terrorist attacks and anthrax
attacks in the fall of 2001 as shown in U.S. Postal Service and Postal Regulatory Commission, Periodicals Mail
Study, September 2011, http://www.prc.gov/Docs/76/76767/Periodicals%20Mail%20Study_final_2131_2149.pdf,
Appendix E.
5
  The CPI-only price cap was implemented by the PRC in 2007, and the first rate increase under the cap occurred in
2008.
6
  Rep. Christopher Shays (CT), “Postal Accountability and Enhancement Act,” 153 Congressional Record, p. H9182
(December 8, 2006).
7
  The law calls for a broad review of the price cap and other provisions after 5 years, Public Law 109-435, Title VII, §
701, and for another review of the price cap after 10 years, 39 U.SC. § 3622(d)(3). The PRC also appears to have the
authority to modify the price cap or to adopt an alternative form of regulation if warranted after the 10 year review, 39
U.SC. § 3622(d)(3.


                                                           1
U.S. Postal Service Office of Inspector General                                                       April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                          RARC-WP-13-007

                       Table 1: Postal Rate Setting and Regulation over the Years
    Time Period             Methods of Setting and Regulating Rates                       Public Policy Goals
                     Set by Congress, unregulated (with appropriations       Affordable, politically
1775-1970            subsidy)                                                responsive rates
                     Set by Postal Service with PRC approval, under cost-of- Self-funded universal service
1971-2006            service regulation                                      provider
                     Set by Postal Service with later PRC review, under
2007-Present         price cap regulation                                    Efficiency; avoid death spiral8


The reviews mandated by the PAEA are beneficial, because since 2006, mail volume
has been declining — precipitously in 2008 and 2009 — a development that was
unforeseen by policymakers and postal experts during the legislative debate over the
price cap. Volume peaked at 213 billion pieces of mail in 2006, and declined to
160 billion pieces by 2012. Stakeholders and observers widely agree that the main
reasons for the decline in mail usage are the recession that began after the PAEA
became law and the growing use of electronic alternatives to the mail, known as
electronic diversion. The current price cap might not be designed for an environment of
falling volumes.


What is the Price Cap?
The current Postal Service price cap, which applies to products designated as market
dominant, permits annual price increases that are “equal to the Consumer Price Index
for all Urban Consumers”9 (CPI), a commonly used measure of inflation. Market
dominant products are those for which the Postal Service holds a statutory monopoly or
otherwise has significant market power; these products comprise about 99 percent of
Postal Service volume and 86 percent of Postal Service revenues.10 By contrast, the
prices for products designated as competitive, such as Express Mail or Priority Mail, are
limited by competitive market forces, rather than regulation. These products are
regulated by imposing an effective floor on how much the Postal Service can charge, to
prevent the Postal Service from cross-subsidizing competitive products and competing
unfairly with other providers of similar services.

The price cap applies at the level of a class of mail. For example, prices for First-Class
Mail (FCM), Standard Mail, and Periodicals may each rise, at a maximum, at the rate of
inflation. Within each of those classes, there are individual mail products for which the
prices may increase faster than the rate of inflation, as long as rates for each class
overall rise no higher than the rate of the CPI.




8
  The phrase “death spiral” is sometimes used to describe a situation in which a postal provider responds to falling
mail volumes by increasing prices, which causes volume to fall even further.
9
  39 USC § 3622(d)(1)(A).
10
   U.S. Postal Service, 2011 Form 10-K, http://about.usps.com/who-we-are/financials/10k-reports/fy2011.pdf, p. 19.


                                                          2
U.S. Postal Service Office of Inspector General                                                         April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                            RARC-WP-13-007


Incentive Regulation

Critics of the old cost-of-service regulatory system argued that it led to a system at risk
of ongoing cost increases, unpredictable increasing prices, and decreasing mail
volume.11 It gave little incentive to the Postal Service to right size its facilities and
workforce, even as increasing automation made some of its resources redundant. In
order to encourage efficiency and prevent a “death spiral” of increasing costs and
prices, and eventually plummeting mail volume, Congress turned to incentive regulation.

Incentive regulation is designed to protect captive consumers from excessive charges, a
goal for all forms of price regulation. Incentive regulation also meets the public policy
objective of encouraging efficiency. By pegging price increases to economy-wide
inflation, the current postal price cap in essence ensures that rates for postal services
will go up only in nominal terms, never in real terms, with exceptions only for
“extraordinary or exceptional circumstances” under the PAEA’s “exigency” clause.12
Unlike the cost-of-service system, the price cap encourages cost controls through a
profit incentive. If the Postal Service is able to keep costs below inflation, it is able to
earn and retain a profit.


Problems with the Implementation of Postal Price Caps

Under a Price Cap, a Regulated Firm’s Financial Health Is Sensitive to Volume
Changes

                                   A regulated entity’s financial health under a price cap
     A regulated entity’s          is highly sensitive to changes in output volume. A
     financial health under a      regulated network operator such as the Postal Service
     price cap is highly           will do best when output is increasing and will not do
     dependent on volume           as well when output is decreasing, as has been the
     growth.                       case with mail volume since its peak in 2006.13 This is
                                   because the Postal Service has significant institutional
costs, estimated to be about 45 percent of total costs.14 Many of these costs are
particularly associated with the network of addresses to which it delivers at no charge to
11
   Sen. Susan Collins (ME), “Postal Accountability and Enhancement Act,” 153 Congressional Record, p. S11674
(December 8, 2006) (citing a Government Accountability Office statement).
12
   39 USC § 3622(d)(1)(E).
13
   Price cap regulation was implemented first in the telecommunications industry at the time when the industry was
experiencing strong growth.
14
   This figure, which is used to calculate the hybrid cap discussed in this paper, is derived by examining the
percentage of total costs that are reported as attributable in the Postal Service Public 2010 Cost and Revenue
Analysis (CRA), found at http://about.usps.com/who-we-are/financials/cost-revenue-analysis-reports/fy2010.pdf. The
percentage of costs that are attributable as reported in the CRA fluctuated between 55 percent and 60 percent
between 2007 and 2011. The fluctuation is largely due to changes in retiree health benefits payments. Higher
benefits payments reduce the share of volume variable costs, and increase the share of institutional costs. See pages
16-17 for a discussion of legislative changes to retiree health benefits payments. Attributable costs were reported to
be 55 percent of total costs in 2010. The institutional costs figure is derived by ascribing nonattributable costs to the
institutional cost category. In addition, changes to the Postal Service’s retiree health benefits payments or business
model could affect this calculation in the future. Footnote 66 discusses the potential of changes in delivery mode to
affect the Postal Service’s cost structure. The extent of the changes would need to be understood and the impact


                                                           3
U.S. Postal Service Office of Inspector General                                                         April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                            RARC-WP-13-007


the recipient. As mail volume declines, institutional costs by definition do not decline. In
contrast, volume variable costs, such as some mail processing costs, fall as less mail
goes through the system. In 2010, about 55 percent of Postal Service costs were
volume variable.15 Because of the significant institutional costs, total Postal Service
costs do not decrease in proportion to the decrease in mail volume, while revenues do
decrease in proportion to mail volume. Consequently, when volume is decreasing there
is a greater burden on each remaining product to cover the network’s institutional costs.

For example, whether a letter carrier is delivering one letter or five letters, the cost of
delivering to an address (or more precisely, to a delivery point16) remains virtually the
same. As volume declines, however, it is harder for one letter to cover the cost of
delivery than it is for five letters to cover the cost of delivery. The traditional price cap
formula does not recognize that there is more pressure on one letter to pay for the
institutional network related costs of delivery than there is for five letters.

Declining Economies of Density in the Postal Network

The three main drivers of the fundamental economic problem facing the Postal Service
                                  under the current price cap formula are the increasing
  The three main drivers of       number of delivery points, the overall decline in mail
  declining economies of          per delivery point, and the shift in the mail mix away
  density are (1) the             from high-contribution FCM toward lower contribution
  increasing number of            mail.17 Together, these drivers have caused a
  delivery points, (2) the        contribution-weighted drop in volume per delivery
  decline in volume, and (3)      point. This problem is an issue of declining
  the change in mail mix.         economies of density, the fundamental economic trait
                                  that undermines the postal price cap.

Economies of density are somewhat similar to, but distinct from, economies of scale, a
more widely known concept. Economies of scale are present when the cost of
producing a unit of a product decreases as the total output of the product or the size of
the network increases. Economies of density, on the other hand, describe a decrease in
unit costs of production caused by an increase in output relative to the size of a given
network.

For example, in the airline industry, economies of scale — if they are present — might
result from having a greater number of routes to more cities, while economies of density
describe the extent to which a plane’s seats are filled with passengers or its cargo

measured in order to model their impact on the cap formulas. In general, the issue of institutional costs merits further
study to determine whether the costs currently considered institutional are included in the correct category, and
whether technological and operational changes, including futuristic applications such as driverless vehicles, could
change the nature of institutional costs in the postal system. Such research would be relevant to the findings of this
paper.
15
   Ibid. The terms volume variable and attributable costs are being used interchangeably in this paper. Technically,
there is a slight difference between the terms, as attributable costs also include product-specific fixed costs. The
difference is so small, however, that it is not relevant to this discussion.
16
   A delivery point is a single mailbox or other place to which mail is delivered.
17
   Contribution is the profit on a particular product over and above the cost of providing it.


                                                           4
U.S. Postal Service Office of Inspector General                                                           April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                              RARC-WP-13-007


space filled with cargo. The more full the plane is, the greater the economies of density
are likely to be — that is, the cost of operating the plane will be spread over a greater
number of passengers or pieces of cargo, reducing the airline’s cost of providing service
to each customer. Thus, operating the fuller plane will be more profitable than if the
plane were nearly empty.

In the postal network, the impact of economies of
density can be seen by examining the amount of mail          Delivery point: a single
going to each delivery point. Mail volume being              mailbox or other place to
delivered to each delivery point has been declining,         which mail is delivered. A
even as the number of delivery points is increasing.         single address such as an
Figure 2 shows that the number of delivery points rose       apartment or office
steadily from 2000 through 2010.18 Figure 3 shows            building may have several
that the volume of mail going to each delivery point         delivery points.
declined over the same period.19 In 2000, mail volume
per delivery point was 1,545 pieces per year, a little more than five pieces per delivery
day. By 2010, mail volume per delivery point had declined 27 percent to 1,132 pieces
(nearly four pieces per delivery day). Similar to a half-empty plane, postal delivery
vehicles are still going to each address, but with less and less mail to cover the costs of
providing the service. 20 Because FCM led this decline, the financial impact was worse
than indicated by the overall reduction in volume. When volumes are weighted by their
unit contribution, mail volumes per delivery point were, effectively, 32 percent lower in
2010 than in 2000.21




18
   U.S. Postal Service, “Postal Facts,” 2012, http://about.usps.com/who-we-are/postal-facts/welcome.htm.
19
   Figures 2 and 3 originally appeared in U.S. Postal Service Office of the Inspector General, State of the Mail,
Report No. RARC-WP-12-010, April 27, 2012, http://www.uspsoig.gov/foia_files/RARC-WP-12-010.pdf, pp. 21 and
22.
20
   In addition to costs directly related to delivery, there are also postal operations that precede the placement of mail
on the vehicles and final delivery. These operations contribute to institutional costs, but are a smaller contributor to
institutional costs than the costs associated with the delivery network.
21
   State of the Mail, p. 22.


                                                            5
U.S. Postal Service Office of Inspector General                                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                           RARC-WP-13-007

                                       Figure 2: Delivery Points 2000 – 2010


                            155


                            150


                            145
                 Millions


                            140


                            135


                            130


                            125
                                  2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010

Source: U.S. Postal Service, “Postal Facts” (This chart originally appeared in the OIG white paper State of the Mail.)




                                                          6
U.S. Postal Service Office of Inspector General                                                April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                   RARC-WP-13-007

                        Figure 3: Annual Contribution-Weighted Volume Index




                      When volumes are weighted by their unit contribution, mail
                      volumes per delivery point were, effectively 32 percent
                      lower in 2010 than in 2000.




Sources:   U.S. Postal Service Cost and Revenue Analysis Reports, PRC Annual Compliance Determinations, and
           OIG Analysis (This chart originally appeared in the OIG white paper State of the Mail.)



To illustrate the impact of these changes on the Postal Service network, consider a
simplified, hypothetical network that in Year One has 100 delivery points, served by a
regulated firm that delivers 100 pieces of mail. In Year Two the network still has 100
delivery points, but the firm delivers only 95 pieces of mail. The prices of the 95 pieces
of mail would have to increase to finance the same number of delivery points. The
increased burden of paying for the network is in
addition to inflation.                                        When there is less
                                                              volume, the increased
For the Postal Service, the difficulty of financing its       burden on each product
delivery network is more severe than the example              to pay for the expanding
above because the number of delivery points is                network is in addition to
actually growing at the same time that mail volume is         inflation.
declining. Worse, the product that makes the largest
contribution to network costs is FCM; FCM volume is declining further and faster than
other regulated classes of mail. This is why contribution-weighted volume is declining
faster than unweighted volume per delivery point in Figure 3. Under these


                                                       7
U.S. Postal Service Office of Inspector General                                                           April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                              RARC-WP-13-007


circumstances, the amount that must be charged for a single piece of mail to cover the
costs of delivering it quickly outpaces inflation, an effect that grows over time. This is
true even if the Postal Service is managed efficiently, as benchmarked against the
general economy (see Table 3 and the accompanying discussion on efficiency); the
problem is that there are fewer pieces of mail, particularly the more profitable FCM,
generating revenue to finance the network.

A plausible reaction to the financing problem is to attempt to cut costs. Indeed, some
delivery costs might be subject to partial reduction through efficiency and operational
best practices. Eliminating the least profitable delivery points, however, is not possible if
                                the firm is required by a universal service obligation to
 The CPI-only price cap         deliver to all recipients, as the Postal Service is today.
 does not reflect the           Another plausible reaction by a regulated firm would be to
 additional burden on           raise prices in order to increase the revenue from, and
 each product to                contribution of, each product.22 A CPI-only price cap
 contribute more money          formula does allow some rate increases, but the CPI does
 to pay for the expanding not reflect the additional burden on each product to
 network as fewer pieces contribute more money to pay for the costs of the network
 of mail are delivered.         as fewer pieces of mail are delivered. In fact, no input
cost inflation index would, by itself, address the pressure on each of the remaining
products to pay for the network.23

The next two figures illustrate how financial performance under a price cap is tied to
changes in volume. Together, they demonstrate the problem of declining economies of
density and the interaction between institutional costs, volume variable costs, and
revenues as mail volume changes. The figures depict likely financial performance with
CPI-only price cap regulation under two different volume scenarios: optimistic (1.1
percent annual revenue weighted volume growth, the same rate of growth as the growth
in delivery points) and baseline (1.9 percent annual decline in revenue weighted volume
based on a projection by the Boston Consulting Group, or BCG24). All of the figures are
based on the presumption that the Postal Service is starting from a breakeven position,
so that revenues and costs are fully aligned and it is neither making a profit nor incurring
a loss. Figure 4 indicates that as prices grow at the same rate as the CPI, and mail
volume grows at 1.1 percent, the same as the delivery network, revenues continue to
cover costs over time. This situation is an implied assumption of a CPI-only price cap. In
contrast, Figure 5 demonstrates that as prices grow at the same rate as the CPI, and
mail volume declines at the projected baseline of 1.9 percent, revenues eventually fall
below costs. Figures 4 and 5 are illustrative models that utilize simplifying
assumptions;25 their main value is to demonstrate the relative impact of changes in mail

22
   This is particularly true for products that have a low price elasticity of demand. That is, changing prices do not have
a significant impact on the quantity demanded.
23
   While some observers have discussed alternative input price indices such as the Employment Cost Index, these
alternative indices would not necessarily address the issue of declining volumes of density.
24
   Boston Consulting Group, Projecting U.S. Mail Volumes to 2020, March 2, 2010, http://about.usps.com/future-
postal-service/gcg-narrative.pdf, p. 12.
25
   The model used to develop Figures 4 and 5 assumes that all change in institutional costs is tied to changes in the
number of delivery points. The model has different structural assumptions from the model used to develop the
detailed financial projections in tables 3 and 4 and appendices B through D. Figures 4 and 5 do not distinguish


                                                            8
U.S. Postal Service Office of Inspector General                                                       April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                          RARC-WP-13-007


volume on financial performance under a CPI-only price cap by comparing the impact of
rising volume (Figure 4) to the impact of declining volume (Figure 5). See Appendix E
for more detailed background on these figures.

            Figure 4: Implied Volume Growth Assumption under a CPI Price Cap —
    Revenue Weighted Volume Grows at Least at the Same Rate as the Network to Cover Costs




Source: Christensen Associates Analysis




between market dominant and competitive prices, nor are volume projections adjusted to account for the impact of
price changes. The importance of Figures 4 and 5 is not the financial projections, but to highlight the price cap’s
impact on a physical network firm when output is rising, in contrast to its impact when output is declining.


                                                          9
U.S. Postal Service Office of Inspector General                                                     April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                        RARC-WP-13-007

     Figure 5: Baseline Volume Projection of 1.9-Percent Revenue Weighted Volume Decline —
                       Revenues Fall below Costs under CPI-Only Price Cap




Source: Christensen Associates Analysis



An Unforeseen Drop in Mail Volume Undermined Price Regulation in
the United Kingdom
In the United Kingdom (UK), Royal Mail postal officials have also been faced with recent
unforeseen declines in mail volume. Like the United States, the UK adopted price
regulation in the postal sector, imposing the first cap in 2003. The most recent UK price
cap system was in place from 2006 to March 2012. Largely due to the recession and
ongoing electronic substitution, mail deliveries have fallen by 25 percent since 2006.26
The steep decline in mail volume was unforeseen by policymakers and experts when
the price cap was set in 2006.27 As the UK postal and telecom regulator Ofcom
explains, “the assumptions underlying the regulatory formula were proved wrong at a
fairly early stage” due to the changing market.28

Despite implementing a modernization program that involves significant reductions in its
workforce and network rationalization,29 Royal Mail suffered significant financial losses
in its core universal service business (domestic letters, packets, and small parcels) in

26
   Ofcom, Securing the Universal Postal Service: Proposals for the future framework for economic regulation, October
20, 2011, http://stakeholders.ofcom.org.uk/binaries/consultations/securing-the-postal-service/summary/condoc.pdf,
para. 4.8.
27
   Ibid., para. 1.20
28
   Ibid., para. 4.27
29
   Ibid., paras. 4.1, 4.18.


                                                        10
U.S. Postal Service Office of Inspector General                                                      April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                         RARC-WP-13-007


recent years.30 Like the United States, Royal Mail projects that mail volumes in the UK
will continue to decline, anticipating a drop of over 20 percent through the 2015-2016
period.31

Finding that Royal Mail’s deteriorating financial situation is a threat to universal service,
Ofcom declared that price regulation “has failed in the face of the particular
circumstances affecting this sector.”32 It further noted that the UK price cap
“has…demonstrated all the weaknesses of price controls, with none of the benefits.”33
Under the UK price cap system, “prices have been low and unsustainable” and “prices
for products in many cases have been below costs,” according to Ofcom.34 The price
cap, Ofcom explained, removed Royal Mail’s flexibility to adjust to changes in demand,
while Royal Mail was unable to improve efficiency sufficiently to take advantage of the
price cap’s incentive properties.35 The regulator also noted the difficulty in setting the
correct cap; with changing market circumstances, it is too difficult to predict whether the
price cap allowance is sufficient to finance universal service.36

Ofcom questioned the effectiveness of additional incentives for efficiency for an
operator that is currently losing money. Ofcom also noted that for Royal Mail, being a
public sector entity “significantly weakens the profit incentive and therefore the
efficiency incentives” of a price cap.37 In response to Royal Mail’s financial problems
and issues with price cap implementation and design, Ofcom removed price controls on
nearly all of Royal Mail’s products.38


The PAEA Calls for Re-evaluation of the Price Cap
Addressing the problems outlined above is difficult under current law, as the PRC
appears to have little flexibility to adjust the cap formula to reflect changes in Postal
Service costs or the mail market that are not fully reflected in the CPI. The PAEA,
however, requires re-evaluation of the price cap and its other provisions after 5 and 10
years, consistent with best practices in economic regulation.39 On September 22, 2011,
the PRC published its five-year review of the effectiveness of the PAEA, recommending


30
   Ibid., p. 27, Table 2.
31
   Ibid., para. 5.32. (For comparison, the Boston Consulting Group’s base case for the Postal Service implies an
unweighted volume decline of 15 percent by 2020.)
32
   Ibid., para. 1.21
33
   Ibid., para. 6.26
34
   Ofcom Media Briefing, “Securing the universal postal service: The future framework for economic regulation,”
http://stakeholders.ofcom.org.uk/binaries/consultations/securing-the-postal-service/annexes/slides.pdf, October 20,
2011, slide 6.
35
   Securing the Universal Postal Service, at para. 6.26
36
   Ibid., para. 1.25.
37
   Ibid., para. 6.39.
38
   Ofcom News Release, “Ofcom announces measures to safeguard the UK’s universal postal service,” March 27,
2012, http://media.ofcom.org.uk/2012/03/27/ofcom-announces-measures-to-safeguard-the-uks-universal-postal-
service/. Ofcom kept the price cap on Second Class letters, which are disproportionately used by “vulnerable”
consumers such as the poor and elderly. Prices for competitors’ access to Royal Mail’s network remain regulated in
the competitive UK mail market.
39
   Public Law 109-435, title VII, § 701 and 39 U.SC. § 3622(d)(3).


                                                         11
U.S. Postal Service Office of Inspector General                                                       April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                          RARC-WP-13-007


consideration of some relatively minor changes to the cap formula.40 Later, in the 2011
Annual Compliance Determination, the PRC found that “[t]he combination of the price
cap and the continuing decline of First Class Mail prevents the Postal Service from
generating sufficient funds from mail users to cover its institutional costs.”41 In
furtherance of the PAEA’s policy of built-in reviews, the PRC’s findings present the
possibility of analyzing potential adjustments to the existing price cap formula. This re-
evaluation could ensure that a cap follows regulatory best practices and meets the
legislative objectives of efficiency, flexibility, and financial self-sufficiency.

The United States Postal Service Office of Inspector General solicited the help of the
economic consulting firm Laurits R. Christensen Associates (Christensen Associates) to
strengthen its understanding of recent developments in price cap regulation and the
economic impact of regulatory instruments on the financial health and performance of
regulated firms. Christensen Associates has extensive expertise in the areas of postal
economics and price cap regulation, and has analyzed or helped to implement several
price caps in the transportation, telecommunications, and energy industries.


Alternative Incentive Regulation Formulas Tailored to the Current
Postal Market
As discussed above, the CPI-only price cap does not reflect the additional burden on
each product to contribute more money to pay for the expanding network, as fewer
pieces of mail are moving through the network. There are potential adjustments to the
price cap formula that do take into consideration declining volume and the expanding
delivery network.42 Two of these alternative formulas are the revenue-per-delivery-point
(RDP) and hybrid caps. These formulas are described in more detail below. Table 2
summarizes how costs are treated by the different types of price cap formulas.




40
   Postal Regulatory Commission, Section 701 Report: Analysis of the Postal Accountability and Enhancement Act of
2006, September 22, 2011 http://www.prc.gov/Docs/75/75994/701_Report-092211.pdf. The PRC recommended that
Congress consider providing an opportunity for the Postal Service to achieve increased pricing authority for increases
in quality of service. Section 701 Report, p. 28.
41
   Postal Regulatory Commission, Annual Compliance Determination, Fiscal Year 2011, March 28, 2012,
http://www.prc.gov/Docs/81/81771/FY%202011%20ACD.pdf, p. 5.
42
   Amendment SA 2054, offered as amendment to S. 1789, the 21st Century Postal Service Act of 2012 during floor
debate in the Senate in the 112th Congress, had language adjusting the price cap for bulk products “to reflect any
estimated changes in unit costs due solely to changes in the volume of such products entered into the mail.” “Text of
Amendments,” 158 Congressional Record, p. S2511 (April 18, 2012). The amendment did not come up for a vote.


                                                         12
U.S. Postal Service Office of Inspector General                                                         April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                            RARC-WP-13-007

 Table 2: The Traditional Price Cap Does Not Directly Account for Network-Related Output Costs
      Formula    How Does it Cover Network-Related Costs?                                 Notes
     Price Cap   Does not account for network growth                      Increasing output/network costs are
                                                                          covered sufficiently only when volume
                                                                          growth keeps up with delivery point
                                                                          growth
       RDP       Accounts for declines in revenue weighted                Overcompensates for output/network
                 volume and increases in delivery points so that          costs when volume declines by failing
                 revenue per delivery point rises at the rate of          to account for volume variable costs,
                 inflation                                                which go down with volume
      Hybrid     Compensates Postal Service for increased                 The 45 percent adjustment
                 fixed costs by adding to the cap formula 45              compensates only for institutional
                 percent of the decline in revenue per delivery           costs, which remain even as volume
                 point                                                    goes down. Excludes volume variable
                                                                          costs.



Revenue-Per-Delivery-Point Cap

 The current CPI-only price           In a CPI-based RDP cap, the allowable maximum
 cap and RDP cap produce              revenue per delivery point increases in proportion to
 the same price change when           the CPI, instead of allowing price increases in
 revenue-weighted volume              proportion to the CPI. If the ratio of output to network
 increases at the same rate as        size (i.e., revenue weighted volume per delivery
 the delivery network.                point43) stays constant over time, a CPI-based RDP
                                      cap and a CPI-based price cap will effectively allow
                                      the same rate increases. The RDP cap would allow
                                      for larger rate increases when output per delivery
point is declining and smaller rate increases when output per delivery point is
increasing. Since it is expected that Postal Service output per delivery point will
continue to decline over the foreseeable future, a CPI-based RDP cap would allow
greater rate increases than a CPI-based price cap.

RDP-type caps, known as revenue-per-customer caps, were first introduced for electric
and natural gas utilities when output per customer
was falling or when the regulator was trying to     The RDP cap can still be
encourage energy conservation. Under the utility’s  based on the CPI, but allows
traditional rate structure, revenue would fall more revenue per delivery point to
rapidly than cost when usage per customer was       increase in proportion to the
decreasing, and revenue would increase more         CPI, instead of price.
rapidly than cost when usage per customer was
increasing. The RDP-type cap was introduced to

43
   In this paper, the change in volume is measured by calculating revenue per delivery point in constant 2010 dollars.
Constant dollar, or inflation adjusted, revenues are used so that future revenues can be accurately compared to
current revenues. Constant dollar revenue per delivery point is determined by combining the percentage change in
constant dollar revenue and the percentage change in delivery points. This approach accounts for the fact that
different types of mail produce different amounts of revenue per piece, and that volumes for the different types of mail
are falling at different rates.


                                                          13
U.S. Postal Service Office of Inspector General                                                 April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                    RARC-WP-13-007


reduce the utilities’ financial incentive to encourage growth in energy consumption, thus
aligning the regulators’ objective of reducing energy consumption with the utilities’
financial incentives.

An RDP cap could potentially allow different percentage rate increases for different
classes of mail. For example, if FCM and Standard Mail are placed in two separate RDP
caps, the FCM revenue per delivery point could increase with the CPI, and Standard
Mail revenue per delivery point could also increase with the CPI. If the two mail classes
experienced different rates of change in volume per delivery point, then the maximum
allowed rate increase for each mail class would reflect both the annual change in the
CPI and the change in the constant dollar (i.e. inflation adjusted) revenue per delivery
point for that class.

Hybrid Cap

Some regulatory bodies have adopted rate cap mechanisms that combine elements of
both a price cap and an RDP cap. In 1990, the Federal Communications Commission
(FCC) designed its first rate cap for telecom local exchange carriers. The rate cap
adopted for the carrier common line charge was effectively a blending of a price cap
and a revenue-per-customer line cap. Carrier common line charges were designed to
recover the costs associated with the loop between the local telephone company and
the customer’s premises. While these charges were based on the amount of traffic over
the loop (minutes of use), network costs were not sensitive to that traffic. The rate cap
employed by the FCC effectively was an average of a revenue-per-customer line cap
and a minutes-of-use price cap.44 More recently, an energy regulator adopted a price
cap for a gas company that contained an average use factor.45 This average use factor
adjusts the price cap for changes in usage per customer over time, and is effectively a
blending of a pure price cap and a revenue-per-customer cap. In referring to these
types of blended caps, we adopt the term hybrid caps.

                                    A CPI-based postal hybrid cap would allow prices
     A properly constructed         to increase at the CPI rate adjusted for a fraction of
     hybrid cap would blend the     the decrease in constant dollar revenue per
     price cap and RDP cap in a     delivery point. Determining the proper weighting
     way that captures changes in   factor for the change in constant dollar revenue per
     mail volume and network        delivery point depends upon the cost structure of
     size.                          the company, and, in particular, the elasticity of
                                    total cost with respect to output (or the extent to
which total costs change as output changes).

A hybrid cap would have the potential to better align Postal Service rates with
benchmarked costs under a wide range of mail volume growth scenarios than would
either a price cap or an RDP cap. This fact is due to the nature of the Postal Service’s
cost structure. While a sizeable proportion of postal costs are driven by increases or

44
     Federal Communications Commission, CC Docket No. 87-313, Second Report and Order, October 4, 1990.
45
     Ontario Energy Board, EB-2007-0606, Decision, January 17, 2008.


                                                       14
U.S. Postal Service Office of Inspector General                                                       April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                          RARC-WP-13-007


decreases in mail volume, a significant portion of postal costs are more closely related
to the size of the postal network (the number of delivery points).46 A properly
constructed hybrid cap would blend a price cap and RDP cap in a way that captures this
mail volume/network size cost structure.

How Price Changes are Calculated under the Different Cap Formulas

All of the regulatory instruments analyzed in this paper start with the CPI as a
benchmark for input costs. Unlike the CPI-only cap, the formulas for the RDP and hybrid
caps include measures of decline in revenue weighted volume (this is measured in
constant dollar, or inflation adjusted, revenue)47 and the change in the number of
delivery points. Combined, the two measures determine the change in constant dollar
revenue per delivery point.48

Figure 6 illustrates how rates would change under the different formulas. The figure
uses projected averages for the Postal Service: the CPI grows at 2 percent; revenue
weighted volume (measured in constant dollar, or inflation adjusted, revenue) declines
at 1.9 percent;49 and the number of delivery points grows at 1.1 percent. (These
numbers are illustrative. In practice, regulators would examine the change in these
factors from the prior year and insert the appropriate numbers into the cap formulas).
Figure 6 describes the formula in simplified terms. Appendices A, B, and C have more
detailed and technical discussions of the cap formulas.




46
   A more technical description of the Postal Service cost structure is that the Postal Service has both economies of
density and constant returns to scale. An increase in mail volume per household leads to a less than proportional
increase in cost, but an increase in mail volume through an expansion of the Postal Service network leads to a
proportional increase in cost. Appendix A describes how a hybrid cap can be properly calibrated when there are
economies of density and constant returns to scale.
47
   Using constant dollar revenue, rather than the raw volume data, accounts for the fact that different types of mail
bring in different amounts of revenue per piece.
48
   These figures are combined and then subtracted from the CPI. When volume is declining and delivery points are
increasing, combining these factors in the formula produces a negative number. (For example, if volume is declining
by 1.9 percent and delivery points are increasing by 1.1 percent, we have - 1.9 – 1.1 = - 3). When a negative
number is subtracted, its absolute value (the number without regard to a positive or negative sign) is actually added
to the first number, so the effect is an addition to CPI under these circumstances. (For example, if CPI were 2
percent, we have 2 - - 3 = 2 + 3 = 5). On the other hand, if volume were to go up and delivery points were to go down,
the formulas could result in a smaller increase or no increase.
49
   BCG’s unweighted volume projection is a 1.5 percent annual decline through 2020. U.S. Postal Service, Ensuring a
Viable Postal Service for America: An Action Plan for the Future, http://about.usps.com/future-postal-
service/actionplanforthefuture-march2010.pdf, p. 8.


                                                         15
U.S. Postal Service Office of Inspector General                                                       April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                          RARC-WP-13-007

    Figure 6: Application of (Simplified) Cap Formulas to Calculate a Price Change in Year One




                                                                                                      PRICE
 Price       Change in                                                                              INCREASE
 Cap           CPI                                                                                     =2%
                   2%

             Change in                                         Revenue             Change in
 RDP
               CPI
                                          −                    Weighted       −    Number of           =5%
                                                                Volume             Del. Points
                    2%                                         - 1.9%                  1.1%

                                       Share                   Revenue             Change in
             Change in
 Hybrid
               CPI
                                −   Institutional     ×        Weighted       −    Number of          =3.36%
                                       Costs                    Volume             Del. Points
                    2%                .4531                    - 1.9%                 1.1%


Policy and Regulatory Flexibility: X-,Y-, and Z- Factors
In addition to an inflation factor such as the CPI, most price cap formulas also include
various adjustments to the inflation factor, which are generically called X-, Y-, and Z-
factors.50 An X-factor is a productivity benchmark that reduces the price cap, restricting
the amount that a regulated firm can raise prices in order to reflect expected
improvements in productivity and efficiency in the
industry relative to the overall economy.51 A Y-       X-,Y-, and Z-factors are tools
factor accounts for an exogenous (outside the          that can give policymakers
control of management) recurring cost that the         and regulators more flexibility
regulated firm passes through to ratepayers. Fuel      to incentivize efficiency or to
cost increases, for example, could be treated as       address specific cost
Y-factors. A Z-factor is an exogenous one-time         burdens.
cost that is recovered through a special price
increase charged to ratepayers. The Z-factor could replace the exigent rate case
mechanism in the current postal price cap system. Currently, the Postal Service price
cap does not allow for the inclusion of X-Y-, and Z-factors.

50
   While these adjustment factors can provide flexibility to policymakers and regulators, they do not address the
fundamental economic issue of declining volumes of density, unlike the RDP and hybrid caps.
51
   There are a few instances in which the X-factor has taken on a negative value, allowing prices to increase more
rapidly than the inflation factor. In the United Kingdom, a regulator allowed negative X-factors for electricity
distribution companies.


                                                          16
U.S. Postal Service Office of Inspector General                                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                           RARC-WP-13-007


An X-factor is a tool that allows the regulator to make the management of a regulated
firm accountable for operating the firm in an efficient manner. An X-factor could be
helpful for regulating the Postal Service, as several recent reports have noted that the
existing Postal Service processing and retail networks need to be streamlined.52 Y- and
Z-factors, on the other hand, provide flexibility for the regulator and the regulated firm to
address cost increases that are outside of management’s control. These costs could
include, for example, fuel costs and the costs of service mandates that a rational private
firm’s business model would not include, such as the Alaska Bypass subsidy, uniform
national rates, and the costs of universal service that exceed the value of the
monopoly.53

Overall, use of these adjustment factors could provide a quid pro quo, allowing the
Postal Service to pass through cost burdens unaccounted for in the current regulatory
arrangement through new Y- and Z-factors, while allowing for an offset to account for
efficiency gains and ensure that postal customers could share in the cost savings
through an X-factor. In order for the Postal Service to meet the efficiency incentives of
an X-factor, Postal Service management would likely need far more flexibility than it
currently has to make adjustments to its network and other cost drivers. The X-factor
could also be used to address concerns that the Postal Service would curtail cost-
cutting efforts if it is provided with short term financial assistance. While these factors
could provide some flexibility for policymakers and regulators to address specific costs,
they do not address the fundamental economic issue of declining economies of density,
for which the RDP and hybrid caps are tailored. Appendix D has a detailed analysis of
X-, Y-, and Z- factors.


Financial Simulations of Alternative Rate Cap Formulas
To understand how rate regulation could affect the financial sustainability of the Postal
Service in the future, we consider a variety of possible future scenarios and estimate
Postal Service net income under each scenario. These scenarios begin with the actual
financial results for 2010 with projections through 2015.54 The year 2010 is used as the
baseline year because in 2011, Congress passed continuing resolutions and an
appropriations act deferring a $5.5-billion retiree health benefits payment due under the



52
   An X-factor would only make sense, however, after significant changes to postal policy to lower Postal Service
costs. Christensen Associates’ analysis indicates that given the financial losses and declining volumes facing the
Postal Service, a positive X-factor (reducing the allowable rate increase) would not be advisable. Even with $5 billion
in cost reductions provided by legislative action, and an initial breakeven rate case, an X-factor would negatively
affect Postal Service finances without additional financial assistance over and above that amount. See Appendix D, p.
64.
53
   Policymakers could also choose to subsidize desired services through general government revenues. Covering the
costs of such services through a Y- or Z-factor would represent a choice by policymakers that ratepayers, rather than
taxpayers, should finance the mandates.
54
   Actual financial results in 2011 and 2012 differ from the results in our financial simulations, which are designed to
test specific assumptions. The Postal Service had net losses of $5.067 billion in 2011, and $15.906 billion in 2012.
$11.1 billion of the 2012 loss resulted from its inability to make the 2011 and 2012 retiree health benefits payments.
The $11.1 billion was reflected as a liability on the Postal Service’s 2012 balance sheet.


                                                          17
U.S. Postal Service Office of Inspector General                                                     April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                        RARC-WP-13-007


PAEA.55 In 2012, the Postal Service did not make either the scheduled 2012 payment or
the deferred 2011 payment.56 In 2010, the Postal Service made the payment as
scheduled. The year 2010 therefore represents a more typical year under the PAEA,
and is the most recent such representative year. We consider a CPI-based price cap, a
CPI-based RDP cap, and a CPI-based hybrid cap in the 2011 through 2015 period.

The model used to simulate these financial outcomes is similar to the analytical
framework that is often used to evaluate various rate cap mechanisms in other
industries. In this analytical framework, Postal Service costs are driven by the following
factors: (1) prices that the Postal Service pays for its inputs, (2) Postal Service
workload, and (3) Postal Service total factor productivity (TFP), a common measure of a
firm’s efficiency. Postal Service workload is driven by the volume of mail services
(including special services such as delivery confirmation) provided by the Postal Service
and the size of the delivery network. Postal Service revenue is driven by the volume of
mail services and the prices that the Postal Service is able to charge for those services.

When the CPI is used as the inflation index in a price cap plan for other industries, the
price cap mechanism often includes an X-factor calibration to adjust for the fact that the
CPI is a measure of output prices in the U.S. economy. As a measure of economy-wide
output prices, the CPI includes the effects of economy-wide productivity and input price
growth. In these price cap plans, the X-factor is based on (1) the difference between
TFP growth in the regulated industry and TFP growth in the U.S. economy, and (2) the
difference between the input price growth (i.e., the percentage changes in the prices
paid for inputs) for the economy and the input price growth for the regulated industry.57
An X-factor of zero would be consistent with the conclusion that there is no differential in
TFP growth or in input price growth between the U.S economy and the regulated
industry. In our financial simulations we explicitly make the assumption that Postal
Service TFP growth matches TFP growth in the economy and Postal Service input price
growth matches input price growth in the economy.

We view the assumption about Postal Service TFP growth as representing a reasonable
benchmark for the organization. Traditionally, the Postal Service used productivity
growth in the nonfarm sector of the U.S. economy as a benchmark to evaluate its




55
   See, e.g. Continuing Appropriations Act, 2012, Public Law 112-36, § 124 (extending the payment date to
November 18, 2011) and Consolidated Appropriations Act, 2012, Public Law 112-74, § 632 (extending the payment
date further to August 1, 2012).
56
   U.S. Postal Service, 2012 Form 10-K, http://about.usps.com/who-we-are/financials/10k-reports/fy2012.pdf, p. 10.
57
   See Laurits R. Christensen, Philip E. Schoech, and Mark E. Meitzen, “Telecommunications Productivity,” in
Traditional Telecommunications Networks, Gary Madden (ed.) (Cheltenham, UK: Edward Elgar, 2003), and
Appendix A.


                                                        18
U.S. Postal Service Office of Inspector General                                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                           RARC-WP-13-007


performance.58 In recent years, Postal Service TFP growth has lagged slightly behind
TFP growth in the U.S. economy, but the difference has been small.59

In our analysis we use as our point of reference the BCG 2010 study of Postal Service
mail volume.60 In the BCG base case, constant dollar revenue is projected to decrease
1.9 percent per year,61 while delivery points are projected to increase 1.1 percent per
year.62 We use these BCG projections as assumptions in our base case scenarios. We
also consider a pessimistic scenario in which constant dollar revenue decreases 4.0
percent per year, and an optimistic scenario in which constant dollar revenue increases
1.1 percent per year. The pessimistic scenario is roughly in line with the BCG worst
case scenario,63 while the optimistic scenario is based on the favorable assumption that
mail volume grows at the same rate as the BCG projected growth rate for delivery
points. Details on these scenarios are found in Appendix C.

Because the Postal Service begins the simulation period with $8.5 billion in losses at
the close of 2010, the rate cap simulations will show significant losses during the 2011
through 2015 period unless there is legislative action to reduce Postal Service costs, or
an adjustment to the 2010 rates at the beginning of the simulation period, or a
combination of both approaches. In the simulations, the combination of these actions
would facilitate a break-even start for the Postal Service going into the cap period. If the
financial health of the regulated entity is a concern, a price cap needs to be built on a
stable foundation of a break-even starting point. Once a price cap is implemented,
prices are limited by the cap’s inflation index, so that prices on specific products that are
already losing money might never be able to catch up with costs. This problem can
occur even if the regulated firm is keeping its cost changes within the rate of inflation.
This is also true for the firm’s overall prices and costs. Postal Service prices, on the
other hand, were not aligned with costs prior to the imposition of the current CPI-only

58
   The Postal Service has moved away from using nonfarm productivity growth as a benchmark in recent years
because nonfarm productivity growth is substantially influenced by high technology goods and services. See U.S.
Postal Service, 2005 Comprehensive Statement on Postal Operations, http://about.usps.com/strategic-
planning/cs05/cs2005.pdf, p. 64.
59
   For example, between 2004 and 2010, TFP in the economy grew at an average annual rate of 0.7 percent, while
Postal Service TFP grew at an average annual rate of 0.6 percent. Postal Service TFP growth was above TFP growth
for the economy for the years 2004 through 2008, but lagged behind TFP growth for the economy in 2009 and 2010.
2011 data for the economy are not yet available. We should also note that Postal Service input price growth has been
more rapid than input price growth in the economy. Between 2004 and 2010, Postal Service input price growth
averaged 3.6 percent per year while input price growth in the economy averaged 3.1 percent per year.
60
   See U.S. Postal Service, Ensuring a Viable Postal Service for America: An Action Plan for the Future,
http://about.usps.com/future-postal-service/actionplanforthefuture-march2010.pdf; and Boston Consulting Group,
Projecting U.S. Mail Volumes to 2020, March 2, 2010, http://about.usps.com/future-postal-service/gcg-narrative.pdf.
61
   Boston Consulting Group, Boston Consulting Group, Projecting U.S. Mail Volumes to 2020, March 2, 2010
http://about.usps.com/future-postal-service/gcg-narrative.pdf, p. 12. BCG projects constant dollar revenue per
delivery point to decrease 29 percent between 2009 and 2020. This 29 percent decrease over an 11 year period
implies that constant dollar revenue per delivery point will decrease at an average annual rate of 3 percent (ln(1-
.29)/11 = -3%). Delivery points are projected to increase 1.1 percent per year (see the following footnote), and this
implies that constant dollar revenue will decrease 1.9 percent per year (-3% + 1.1%=-1.9%).
62
   Boston Consulting Group, Projecting U.S. Mail Volumes to 2020, March 2, 2010 http://about.usps.com/future-
postal-service/gcg-narrative.pdf, p. 12. BCG projects delivery points to increase 13 percent between 2009 and 2020.
This 13 percent increase over an 11 year period implies that delivery points will increase at an average annual rate of
1.1 percent (ln(1.13)/11 = 1.1%).
63
   U. S. Postal Service, Ensuring a Viable Postal Service for America: An Action Plan for the Future,
http://about.usps.com/future-postal-service/actionplanforthefuture-march2010.pdf, p. 7.


                                                          19
U.S. Postal Service Office of Inspector General                                                         April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                            RARC-WP-13-007


postal price cap. While the PAEA included a transition rule64 allowing the Postal Service
to file a final rate case prior to the implementation of the price cap, this step was not
taken. 65

In the scenarios appearing in Table 3 of this report, we assume that Congress grants
the Postal Service $5 billion in annual cost reductions.66 We also assume that there is
an upward adjustment in the 2010 rates such that the remaining 2010 deficit is
eliminated. These adjustments to allow for a breakeven start can be viewed in a
modular fashion; the greater the portion of the 2010 revenue gap that is eliminated
through legislative action, the lower the rate increase would be to eliminate the
remaining gap, and vice versa. Table 4 reports the results of scenarios with no
measures to facilitate a breakeven start. In Appendix C, we report the results of several
different scenarios, including scenarios assuming only legislative action to reduce costs
but no rate adjustment as well as scenarios where there is neither congressional relief
nor rate adjustments.

The reported simulations also assume that the CPI increases 2 percent per year. While
the assumed rate of CPI increase will affect the magnitude of the reported net income
and net losses, the direction or importance of the results would not change if a different
rate of CPI increase is assumed. The prices included in the simulations are meant to
illustrate the effects of the different cap formulas, as well as the impact of the interaction
among different policy scenarios and prices on the financial health of the Postal Service.
They are not a recommendation of any particular prices.


Results of Key Scenarios
Table 3 shows the results of a CPI-only price cap, a CPI-based RDP cap, and a CPI-
based hybrid cap, assuming that both Congress grants the Postal Service $5 billion in
annual cost reductions during the simulation period and the 2010 rates are adjusted to

64
   39 U.S.C. § 3622(f).
65
   Therefore the CPI-capped prices did not explicitly account for the newly required retiree health benefits payments
of about $5.5 billion annually (although the majority of these payments were considered to be included in the rate
base), and “underwater” products have continued to be priced below their costs. The lack of a sustainable foundation
placed the Postal Service in a difficult position from the beginning of the price cap.
66
   This amount is approximately what would result from, for example, permitting the Postal Service to pay only the
“normal costs” of retiree health and pension obligations. There are, however, a number of pending policy proposals
under consideration for reducing Postal Service costs. The $5 billion in cost reductions is chosen to illustrate the
potential impact of these proposals in relation to rates and rate regulation formulas. The term “normal costs” is an
actuarial and accounting term of art that describes future pension plan costs incurred during an accounting period for
services performed during the period. Other alternatives for providing significant cost reductions to the Postal Service
include proposals to reduce the number of delivery days and a finding in a USPS OIG audit report that recommended
changes in delivery modes. The report found that as much as $4.5 billion could be saved if delivery to the door was
replaced with curbside delivery and an additional $5.1 billion could be saved if centralized delivery (i.e., “cluster
boxes”) were used for all delivery points. See U.S. Postal Service Office of Inspector General, Audit Report – Modes
of Delivery, Report Number DR-AR-11-006, July 7, 2011, http://www.uspsoig.gov/foia_files/DR-AR-11-006.pdf, p. 2.
However, it must be noted that such changes are different in nature from the reduction in benefit obligations that has
been modeled in the simulations in this paper. These proposed changes in delivery method would alter the cost
structure of the Postal Service and would have implications for the structure of the capping mechanism. Changing
delivery modes or reducing the number of days of delivery, would, for example, affect the proportion of total Postal
Service costs that are considered institutional costs.


                                                           20
U.S. Postal Service Office of Inspector General                                                                 April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                                    RARC-WP-13-007


eliminate the remaining deficit to facilitate a breakeven start. In order to eliminate the
deficit remaining after the $5 billion in congressional assistance, the rates of market
dominant products would be increased 6.54 percent. The simulations in Table 3 use the
mail volume projections from the base case scenario. (These simulations are described
as Scenarios 8, 17, and 26, respectively, in Appendix C).

   Table 3: Net Income Simulations for a CPI-based Price Cap, Revenue-per-Delivery Point Cap,
                            and Hybrid Cap – Base Case Scenarios
                                                   (billions of dollars)
                                         2010*         2011          2012          2013          2014           2015

        CPI-based Price Cap (Scenario 8)
          Revenue                         70.1          70.3          70.4          70.6          70.7          70.9
          Expense                         70.1          70.9          71.7          72.5          73.3          74.1
          Net Income                      0.0           -0.6          -1.3          -1.9          -2.6          -3.3
          Rate Increase                 6.54%          2.00%         2.00%         2.00%         2.00%         2.00%
                Average Rate Increase                                              2.76%

        CPI-based RDP Cap (Scenario 17)
          Revenue                         70.1          71.6          73.4          75.3          77.3          79.3
          Expense                         70.1          70.6          71.0          71.4          71.8          72.2
          Net Income                      0.0           1.0           2.4           3.9           5.5            7.1
          Rate Increase                 6.54%          5.00%         5.65%         5.79%         5.82%         5.82%
            Increase above CPI                         3.00%         3.65%         3.79%         3.82%         3.82%
                Average Rate Increase                                              5.77%

        CPI-based Hybrid Cap (Scenario 26)
          Revenue                         70.1          70.8          71.7          72.5          73.3          74.2
          Expense                         70.1          70.8          71.4          72.0          72.7          73.3
          Net Income                      0.0           0.1           0.3           0.5           0.6            0.8
          Rate Increase                 6.54%          3.36%         3.49%         3.51%         3.51%         3.51%
            Increase above CPI                         1.36%         1.49%         1.51%         1.51%         1.51%
                Average Rate Increase                                              3.99%

       * All scenarios include the assumptions that Congress grants $5 billion in annual cost reductions during the
         simulation period and prices are increased so that the Postal Service breaks even in 2010.


Because mail volume per delivery point is declining, the Postal Service has a net loss in
2011 under the CPI-only price cap (Scenario 8).
By 2015, the net loss amounts to $3.3 billion while    Even with a breakeven start,
total mail volume is 153 billion pieces. For this      the Postal Service would
scenario, the net losses arise even with the           need productivity gains more
assumptions that the Postal Service is matching        than double the assumed
the TFP growth for the U.S. economy, and Postal        economy-wide average to
Service input prices are increasing no more rapidly break even under the current
than input prices in the economy.                      CPI-only price cap.




                                                               21
U.S. Postal Service Office of Inspector General                                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                           RARC-WP-13-007


Another way of looking at the revenue shortfall in this scenario would be to ask the
question “what additional increase in productivity would be needed for the Postal
Service to break even under the CPI-based price cap?” The financial simulations
indicate that the Postal Service would be able to break even under a CPI-only price cap
if its average annual rate of TFP growth was 1.6 percent, which would be more than
twice the productivity increase assumed for the U.S. economy in our models.67

Under the CPI-based RDP cap, the allowed increase in postal rates generates net
income of $1.0 billion in 2011. In this scenario, net income increases to $7.1 billion, with
total mail volume projected at 146 billion pieces in 2015.

Under the CPI-based hybrid cap, net income increases very slowly during the simulation
period to the 2015 net income of $0.8 billion. Total mail volume in 2015 is 150 billion
pieces.

The reason the RDP cap and hybrid cap scenarios generate net income is that the
Postal Service is allowed to increase its rates above the projected CPI increase of 2
percent per year. Table 3 shows the allowed rate increases by year for the price cap,
revenue-per-delivery point cap, and hybrid cap simulations. This table also lists the
assumed 6.54 percent increase in 2010, which would have been required to eliminate
the net loss in that year.

Under the base case scenario assumptions, rates would need to increase 3.18 percent
per year for the years 2011 through 2015 in order for the Postal Service to break even.
This means that the CPI-based price increases of 2.0 percent per year would need to
be increased 1.18 percentage points each year for the Postal Service to maintain a
break-even status. Under the CPI-based RDP cap, rates would increase 5.77 percent
                                   per year (the CPI increase of 2.0 percent plus the 3.77
 Without a break-even start,       percent output per delivery point adjustment).68
 the Postal Service faces
 financial losses under all        As mentioned above, the net income results presented
 the cap formulas discussed in Table 3 are dependent on the Postal Service
 in this paper.                    starting from a break-even point in 2010. Without an
                                   initial rate adjustment, the Postal Service faces
financial losses under all the cap formulas discussed in this paper. Table 4 shows the
net income simulations when there is no initial cost reduction granted by Congress and
no break-even rate adjustment in 2010.




67
   Between 2004 and 2010, TFP growth averaged 0.7 percent.
68
   Adjusting the RDP cap formula by introducing an “X-factor” could eliminate the accrual of windfall profits by the
Postal Service. By applying an X-factor of 2.59 percent to the CPI-based RDP cap in this scenario, so that revenue
per delivery point would be allowed to increase at the CPI-based RDP cap rate less 2.59 percent, rates would
increase at the breakeven 3.18 percent per year (5.77% - 2.59%).


                                                          22
U.S. Postal Service Office of Inspector General                                           April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                              RARC-WP-13-007

   Table 4: Net Income Simulations for a CPI-based Price Cap, Revenue-per-Delivery Point Cap,
            and Hybrid Cap – Base Case Scenarios with No Congressional Assistance
                                and No 2010 Rate Adjustments
                                              (billions of dollars)
                                    2010          2011         2012    2013    2014      2015

        CPI-based Price Cap (Scenario 2)
         Revenue                   67.1           67.2         67.4    67.5    67.7      67.8
          Expense                   75.6          76.4         77.2    78.0    78.8      79.7
          Net Income                   -8.5       -9.2         -9.8    -10.5   -11.1     -11.8
          Rate Increase                           2.00%        2.00%   2.00%   2.00%    2.00%
               Average Rate Increase                                   2.00%

        CPI-based RDP Cap (Scenario 11)
         Revenue                  67.1            68.5         70.2    72.0    73.9      75.8
          Expense                   75.6          76.1         76.5    76.9    77.3      77.7
          Net Income                   -8.5       -7.6         -6.3    -4.9    -3.4      -1.9
          Rate Increase                           5.00%        5.65%   5.79%   5.82%    5.82%
           Increase above CPI                     3.00%        3.65%   3.79%   3.82%    3.82%
               Average Rate Increase                                   5.62%

        CPI-based Hybrid Cap (Scenario 20)
         Revenue                   67.1           67.8         68.6    69.3    70.1      71.0
          Expense                   75.6          76.2         76.9    77.5    78.2      78.8
          Net Income                   -8.5       -8.4         -8.3    -8.2    -8.0      -7.9
          Rate Increase                           3.36%        3.49%   3.51%   3.51%    3.51%
           Increase above CPI                     1.36%        1.49%   1.51%   1.51%    1.51%
               Average Rate Increase                                   3.47%


In all three scenarios, the net loss in 2010 is $8.5 billion. Under the price cap
(Scenario 2), the net loss increases to $11.8 billion by 2015, while under the hybrid cap
                                                (Scenario 20), the net loss decreases
  Without a break-even start, the Postal slightly to $7.9 billion by 2015. Even under
  Service would need to make average            the RDP cap (Scenario 11), the net losses
  annual productivity gains of 4.1              are not entirely eliminated, as the net loss
  percent to breakeven by year five             in 2015 is $1.9 billion. In order for the
  under a CPI-only price cap. The               Postal Service to break even under the
  economy-wide average was 1.1                  CPI-based price cap by 2015, it would
  percent in the period 2000 to 2008            need to have average annual TFP
  and 0.7 percent in the period 2004 to         increases of 4.1 percent.
  2010.
                                                To put this number in context, the Bureau
of Labor Statistics (BLS) reports productivity statistics for 86 manufacturing industries.
Of these 86 industries, only five achieve annual rates of productivity growth exceeding 4
percent: computer and peripheral equipment manufacturing, semiconductors and
electronic components manufacturing, magnetic media manufacturing and reproduction


                                                          23
U.S. Postal Service Office of Inspector General                                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                           RARC-WP-13-007


manufacturing, other transportation equipment manufacturing,69 and electronic
instruments manufacturing.70 BLS reports 1.1 percent as the economy-wide annual rate
of productivity growth during a similar period.


Efficiency Incentives
The main economic justification for imposing a price cap is to incentivize efficiency.71 If
the regulated firm exceeds the anticipated level of efficiency, it will earn profits under a
price cap. If the firm is below the anticipated level of efficiency, it will lose money under
a price cap. The primary concern about the current price cap formula in the postal
sector, given the contemporary market environment, is that it does not account for the
declining economies of density caused by declining mail volumes and a growing postal
network. The alternatives examined in this paper, the RDP cap and hybrid cap, address
the economies of density problem, but could affect adversely (and to varying degrees)
the efficiency incentives.

In the case of the RDP cap, the Postal Service would still have an incentive to reduce
costs, as this would lead to higher net income. The RDP cap, however, creates a
potentially undesirable incentive, as the allowable price change rises as volume
declines. Therefore, the Postal Service would potentially have an incentive to reduce
volume even further, which would likely be seen as socially undesirable. The hybrid cap
reduces this potentially undesirable incentive while still accounting for declining
volumes. One issue that regulators will have to monitor closely with a hybrid cap is the
institutional costs multiplier. If regulators observe that the Postal Service is failing to
reduce institutional costs sufficiently, regulators might need to adjust the institutional
cost multiplier downward in order to maintain a proper incentive to reduce institutional
costs.

The net income projections in this paper, however, assume that the Postal Service
matches economy-wide productivity gains (see Appendix C). In order to continue to
have even a small positive net income under the hybrid cap, even with a break-even
start and an external cost reduction granted by Congress, the Postal Service would
have to maintain its current level of average annual productivity improvements (see
Table 3 and accompanying text). If Postal Service productivity gains fell below the
economy-wide level, the Postal Service would lose money. If additional efficiency
incentives were needed, an X-factor could be added to the cap. By using an X-factor,
lawmakers and regulators would be able to push the Postal Service to achieve greater
than economy-wide productivity in response to future technological developments,
structural changes (such as changes in the mode of delivery), or as a quid pro quo for

69
   Military armored vehicles and tanks make up a significant component of the other transportation equipment
industry.
70
   Bureau of Labor Statistics, Multifactor Productivity Trends for Detailed Industries, 2008, September 28, 2010,
Table 3, http://www.bls.gov/news.release/pdf/prin3.pdf. We use the 2000-2008 average rates of productivity growth.
71
   An ongoing issue in postal regulation is whether Postal Service has sufficient managerial flexibility to respond to
efficiency incentives. Other reports have noted that the Postal Service faces many political and procedural hurdles
when attempting to cut costs. See, for example, U.S. Postal Service Office of Inspector General, Barriers to Retail
Optimization, Report No. RARC-WP-11-005, June 9, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-005.pdf.


                                                          24
U.S. Postal Service Office of Inspector General                                               April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                  RARC-WP-13-007


further financial assistance. Table 5 summarizes the efficiency-related features of the
three regulatory instruments analyzed in this paper, as well as the old cost-of-service
system.

 Table 5: Strengths and Weaknesses of Rate Regulation Instruments with Respect to Efficiency

Regime      Incentive for Efficiency                         Upside                        Downside
Cost-of-   Low                              Allows for full cost recovery            Few incentives to
Service                                                                              reduce costs
Current    Must keep costs below            Strong incentives to cut costs           Despite efficiency, firm
Price      inflation                                                                 may lose money when
Cap                                                                                  volume is declining
                                                                                     Firm that is losing
                                                                                     large amounts of
                                                                                     money arguably has
                                                                                     incentives to cut
                                                                                     costs without cap

                                                                                     Postal Service has no
                                                                                     shareholders to push
                                                                                     management to meet
                                                                                     profit incentives
RDP        Higher profits earned by         Permits full recovery of institutional   Rewards and
           keeping costs down               costs                                    potentially
                                                                                     overcompensates firm
                                                                                     for declines in volume.
                                                                                     Punishes firm when
                                                                                     volume increases.
Hybrid     Higher profits earned by         Accounts for institutional costs.        Close regulatory
           keeping costs down               Works with increasing or decreasing      monitoring of
                                            volume.                                  institutional costs is
                                                                                     needed.




                                                      25
U.S. Postal Service Office of Inspector General                               April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                  RARC-WP-13-007




Conclusion
The current CPI-only price cap does not account for declining economies of density in
the postal system, a problem which has accelerated since the implementation of the
price cap. The decline in economies of density is caused by three key drivers: (1) the
increase in the number of delivery points each year; (2) the overall decline in the volume
of mail; and (3) the shift in the mail mix away from high contribution First-Class Mail to
lower contribution types of mail. The combination of these three drivers means that
each year, there is a greater burden on each product to contribute more money to pay
for the expanding network. This burden is in addition to the inflationary pressure on
costs as measured by the CPI.

The law mandates reviews of the current regulatory structure at 5 and 10 year intervals.
Two alternative CPI-based cap formulas, the RDP cap and the hybrid cap, might better
meet the statutory objectives of a financially stable and non-taxpayer subsidized Postal
Service. These formulas do take the additional burden from the decline in volume and
the growth in delivery points into account. While both have the potential to result in
positive net income, the CPI-based hybrid cap may be the most balanced instrument. A
properly constructed hybrid cap would blend the price cap and RDP cap in way that
captures the decline in mail volume, the change in the mail mix, and the increase in
delivery points. The RDP cap would create what could be seen as a perverse incentive
to cause volume to decline further. The hybrid cap, relative to the RDP cap, reduces this
perverse incentive. The hybrid cap could provide incentives for the Postal Service to at
least maintain economy-wide productivity. Without a breakeven start, however, the
Postal Service would continue to lose money under all of the cap formulas examined in
this paper.




                                                  26
U.S. Postal Service Office of Inspector General             April 12, 2013
Revisiting the CPI-Only Price Cap Formula                RARC-WP-13-007




                                            Appendices




                                                  27
U.S. Postal Service Office of Inspector General                                                  April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                     RARC-WP-13-007




Appendix A                            The Theory of Price Caps, Revenue-per-Customer
                                      Caps, and Hybrid Caps

Price caps attempt to replicate the discipline of market forces in a competitive economy.
In competitive markets, market forces limit the degree of profits that the firm can earn. In
the short run, a firm that performs better than the industry average will earn economic
profits, while a firm that performs worse than the industry average will earn economic
losses. However, the competitive forces in the industry will eventually drive profits to
zero for all firms. The formerly less efficient firms will improve their efficiency or drop out
of the market. The efficiency improvements in the industry will drive down the prices72 of
industry outputs, putting pressure on the economic profits of the formerly most efficient
firms.

Price cap design generally begins with a benchmark level of efficiency, where the
regulated firm’s revenue would equal its cost. If a firm is more efficient than this
benchmark level of efficiency, then it generates economic profits. If a firm is less
efficient than that benchmark level, then it generates economic losses. In the following
discussion, we show how this assumption about the benchmark level of efficiency, its
revenue, and its cost is used to generate a price cap formula.73 Denoting total revenue
by R and total cost by C, we have:

RC
                                                                                               (A-1)
p   j
         j   y j   wk x k
                      k

where pj represents the price of output j, yj the quantity output j, wk the price of input k,
and xk the quantity of input k. Differentiating equation (A-1) with respect to time, letting a
dot above a variable represent its derivative with respect to time, letting rj represent the
share of output j in total revenue, and letting sk represent the share of input k in total
cost, we have the following relationship:

             y j            p j            x k       w
 rj j       yj
                      rj
                      j      pj
                                      sk
                                      k      xk
                                                    sk k ,
                                                    k   wk
                                                                                               (A-2)


Rearranging terms in (A-2) yields:




72
  Elsewhere in this paper, we use the word “rate” when referring to a Postal Service output price.
73
  A discussion of how this type of price cap design has been applied to the telecommunications industry can be
found in Laurits R. Christensen, Philip E. Schoech, and Mark E. Meitzen, “Telecommunications Productivity,” in
Traditional Telecommunications Networks, Gary Madden ed., (Edward Elgar, Cheltenham UK, 2003), pp. 100-115.


                                                               28
U.S. Postal Service Office of Inspector General                                    April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                       RARC-WP-13-007


         p j            w k        y j       x 
r
 j
     j
         pj
                  sk
                  k
                               r j
                         wk  j      yj
                                             sk k 
                                             k   x k 
P W T
      
P W T
where
P        p j                                                                  (A-3)
     rj
P    j    pj
W       w
     sk k
W    k   wk
T        y j       x 
    r j        sk k 
T  j     yj     k   x k 

The term P represents an index of the prices charged by the regulated firm for its
outputs, while the term W represents an index of the prices that the firm pays for its
inputs. The term T represents the ratio of the firm’s total output to its total input, and is a
conventional measure of total factor productivity (though it is not an adequate measure
of total factor productivity for the Postal Service due to economies of density as
discussed below).

Equation (A-3) could potentially be used to develop a price cap mechanism if there were
an adequate measure of input prices for the regulated firm. However, most price cap
plans use either the Consumer Price Index (CPI) or the Gross Domestic Product Price
Index (GDPPI), which are measures of output prices in the U.S. economy. Output price
changes for the economy are related to economy-wide input price changes and total
factor productivity changes in the same way as the relationship for the firm in equation
(A-3). Using the superscript E to represent overall economy output prices, input prices,
and total factor productivity, we have the following relationship:

P E W E T E
        
PE W E T E
and
P P E  W E W   T T E                                                (A-4)
                      
P P E  W E W   T T E 
P P E
       X
P PE

In applications of this formula for regulated firms, the price cap increases at the same
rate as the economy-wide inflation index less a predetermined value for the X-factor.
The selected value of the X-factor in each application is based on the expected
difference between input price inflation in the economy and input price inflation for the


                                                          29
U.S. Postal Service Office of Inspector General                                      April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                         RARC-WP-13-007


regulated firm plus the expected difference between total factor productivity growth for
the regulated firm and total factor productivity growth in the economy.

The conventional measure of total factor productivity is a good measure of changes in
economic efficiency when outputs are priced at their marginal costs. For some regulated
firms, including the Postal Service, outputs are priced above their marginal costs due to
economies of density. Economies of density arise when firms are providing services
over a network of customers, and increasing the amount of output provided to their
customers leads to a less than proportional increase in cost. For these firms, a better
measure of total factor productivity weights outputs by their cost elasticities instead of
revenue shares, and weights the growth in network size by the network cost elasticity.
Denoting the size of the network by N, the cost elasticity of output j by εj, and the cost
elasticity of network size by εN, this enhanced measure of total factor productivity is
given by the formula:

T         y j     N       x 
       j      N      sk k                                                (A-5)
T   j     yj       N    k   x k 

Substituting equation (A-5) into equation (A-4) we have the following relationship:

P P E  W E W   T  T E          T T  
                                   
P P E  W E W   T  T E              T T  
                                                                                  (A-6)
P P E  W E W   T  T E                         y           
                                   r j   j  j      n N 
P P E  W E W   T  T E                   
                                           j             yj   
                                                                         N 
                                                                             

Equation (A-6) highlights the fact that the appropriate X-factor is driven not only by a
projection of changes in relative economic efficiency for the regulated firm but also by
growth in output relative to the size of the network over which the firm provides services
to its customers. For some energy utilities, prices charged for services deviate
significantly from their marginal costs, and the growth in output over the network plays a
significant factor in choosing an appropriate X-factor.

In some instances, regulators have addressed the uncertainty concerning output growth
relative to network size by adopting revenue-per-customer caps. Giving the network
variable N the specific interpretation of the number of customers served, then the
relationship between total revenue and total cost as represented in equation (A-1)
implies the following relationship:




                                                     30
U.S. Postal Service Office of Inspector General                                 April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                    RARC-WP-13-007


R N W  N X 
              
R N W N X 
P        y j N  W  N X 
    r j            
P  j     y j N  W  N X 
                                                                             (A-7)
P W  N X                  y  N 
                     r j j  
P W  N X               
                         j      y j N 

P W  T    y j N 
         rj       
P W  T   j  y j N 
      T  N X
where       
      T  N X


The analog to equation (A-4) is then:

P P E  W E W   T  T E                   y  N 
                                     r j j  
P P E  W E W   T  T E               j     y j N 
                                                                             (A-8)
P P E               y j N 
   E  X     r j      
P P             j    y j N 

              W E W   T  T E     
where X    E      E            
              W    W   T  T           

Here the revenue cap formula adjusts prices based on the inflation factor, a
predetermined X-factor, and a “usage-per-customer factor.” The usage–per-customer
factor in equation (A-8) is effectively constant dollar revenue per customer. The usage-
per-customer factor can be based on recent historical trends and subsequently adjusted
in response to changes in those trends.

The revenue-per-customer cap has traditionally been used in utility industries where the
marginal cost of output is significantly lower than its price and the regulator wants to
provide financial incentives for conservation. Under a simple price cap, revenue would
fall with declines in usage per customer, while total cost would fall at a much lower rate,
and thus the utility’s economic profits would decline. Under a revenue-per-customer
cap, declines in usage per customer would not affect revenue, and economic profits
would increase as total cost declined.

Postal Service products are priced above their marginal costs, and consequently a
revenue-per-customer cap would provide more financial assistance than a price cap
when the demand for mail products is declining rapidly. However, it must be recognized
that the Postal Service would not have incentives to increase its output under a


                                                     31
U.S. Postal Service Office of Inspector General                                                      April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                         RARC-WP-13-007


revenue-per-customer cap, and would in fact have incentives to reduce output further,
as that would increase profits.

The hybrid cap takes elements of both the price cap and the revenue-per-customer cap,
and, using a few simplifying assumptions, can be derived from equation (A-6). First, we
assume that the elasticities of the outputs and the elasticity of network size sum to one.
This implies that an increase in output due to an increase in network size, holding the
output per customer constant, leads to a proportional increase in cost. This also implies
that the firm operates under constant returns to scale and increasing returns to
density.74 Next, we assume that the prices of the outputs are roughly proportional to
their marginal costs. Then equation (A-6) can be rewritten as:

P P E  W E W   T  T E                        y j  N  
                                   1    j    r j
                                                                            
P P E  W E W   T  T E                          
                                                           
                                                                 y  N  
                                                                   j       
                                                      j     j


P P E                            y j N  
    E  X    1    j   r j        
                                             N  
P P                   j       j     y  j

       W E W   T  T E 
X    E      E                                                                      (A-9)
       W      W   T  T 

In equation (A-9), the allowed rate of increase in prices is tied to the inflation factor, a
predetermined X-factor, and a fraction of the usage per customer.




74
   Christensen, Christensen, Guy, and O’Hara found that the Postal Service exhibits constant returns to scale and
increasing returns to density. See Dianne C. Christensen, Laurits R. Christensen, Charles E. Guy, and Donald J.
O’Hara, “U.S. Postal Service Productivity: Measurement and Performance” in Regulation and the Nature of Postal
and Delivery Services, M. A. Crew and P. R. Kleindorfer, eds., (Kluwer Academic Publishers, 1992), pp. 237-255.


                                                         32
U.S. Postal Service Office of Inspector General                                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                           RARC-WP-13-007




Appendix B                   Counterfactual Analysis of Postal Service Net
                             Income, 2007-2010

We conduct two studies to understand how declining mail volume during the period
2007 through 2010 affected Postal Service net income under the CPI-based price cap.
The first study estimates what net income would have been during this period had mail
volume per delivery point not fallen as dramatically as it did. In this first analysis, we
use the trend in mail volume per delivery point between 2000 and 2006 to project a
counterfactual trend in mail volume per delivery point for the years 2007 through 2010.
The second study estimates what net income would have been had Postal Service rates
been capped by a revenue-per-delivery point (RPD) cap75 or a hybrid cap for the years
2007 through 2010.

Estimating the Impact of Declining Mail Volume on Net Income

To estimate the impact of declining mail volume on net income, we ask the question
“What would net income have been had the 2000-2006 trend in mail volume per
delivery point continued through 2010?” This analysis is based on nonpublic data in the
Postal Service total factor productivity database. We use the subscript 0 to represent
actual outcomes during the period 2007 through 2010, and the subscript 1 to represent
the outcomes had the 2000-2006 trend in mail volume per delivery point continued
through 2010.

In analyzing the impact of mail volume changes on net income, we first must distinguish
elements of total revenue that are related to current economic activity from other
revenue elements. (An example of a revenue element that is not related to current
economic activity is the deferred revenue activity adjustment for postage in the hands of
the public. Periodically the Postal Service revises its estimates of the value of postage
held by the public, and any adjustments to this estimate are recorded as miscellaneous
revenue.) Similarly we must distinguish total expense elements that are related to
current economic activity (which we call total cost) from the expense elements such as
the catch-up prefunding of retiree health benefits that are not related to current
economic activity. We assume that the higher rate of mail volume growth for our
counterfactual assumption does not affect the revenue and expense elements that are
not associated with current economic activity. Consequently, the following analysis is
based on revenue and cost associated with current economic activity.

The first step in this analysis is based on the mathematical relationship among revenue,
rates (prices) of Postal Service outputs, and the quantity of Postal Service output
(represented by constant dollar revenue). This relationship is shown in equation (B-1).
Equation (B-1) also explicitly shows that constant dollar revenue is a function of the
quantity of mail volume.

75
     A revenue-per-delivery point cap is similar to the revenue-per-customer cap described in Appendix A.


                                                           33
U.S. Postal Service Office of Inspector General                                  April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                     RARC-WP-13-007


Revenue  Price  ConstantDollarRevenueMailVolume                            (B-1)

Equation (B-1) can be used to infer total revenue under the assumption that mail
volume per delivery point continues its historical trend. Since the prices of Postal
Service outputs do not change in this scenario, equation (B-1) implies:

              ConstantDollarRevenueMailVolume1 
Revenue1                                          Revenue0                   (B-2)
              ConstantDollarRevenueMailVolume0 

The second equation in this analysis is the relationship among cost, the quantity of
Postal Service inputs, and the price of these inputs.

Cost  QuantityOf Inputs  PriceOfInp uts                                      (B-3)

We assume that the price of inputs is unaffected by the alternative growth in mail
volume but that the quantity of inputs will change as mail volume changes. Equation (B-
3) can be used to relate a change in cost to a change in the quantity of inputs.

Cost1 QuantityOfInputs1
                                                                              (B-4)
Cost 0 QuantityOfInputs0

To determine the change in the quantity of inputs, we use the relationship among mail
volume, delivery points, workload, total factor productivity, and the quantity of inputs.
Equation (B-5) shows this relationship.

                              Workload MailVolume, DeliveryPoints 
TotalFactorProductivity                                                       (B-5)
                                        QuantityOfInputs

In the analysis we assume that the change in mail volume will not affect Postal Service
total factor productivity. That is, the efficiency with which the Postal Service handles its
workload is unchanged. For example, if workload is increased by 2 percent, then the
quantity of inputs also increases by 2 percent. (If the Postal Service were able to
handle the additional workload without any additional input, the impact on net income
would be even greater.) Equation (B-5) can be used to determine the alternative level
of input quantity from the alternative level of mail volume.

QuantityOfInputs1 Workload1 MailVolume1 , DeliveryPoints 
                                                                              (B-6)
QuantityOfInputs0 Workload 0 MailVolume0 , DeliveryPoints 

Finally, combining (B-4) and (B-6) yields:

          Workload1 MailVolume1 , DeliveryPoints 
Cost1                                               Cost 0                   (B-7)
          Workload0 MailVolume0 , DeliveryPoints 




                                                  34
U.S. Postal Service Office of Inspector General                                  April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                     RARC-WP-13-007


In this analysis, we compute the rate of mail volume growth per delivery point between
2000 and 2006, and project this rate for the years 2007 through 2010. The analysis is
based on data from the nonpublic Postal Service total factor productivity database.

Table 6 illustrates the significance of the change in mail volume per customer. This
table shows the average rates of growth in constant dollar revenue, delivery points, and
constant dollar revenue per delivery point for two periods: 2000 through 2006, and 2006
through 2010. As can be seen in the table, constant dollar revenue per delivery point
was declining prior to 2006, at an average annual rate of 2.0 percent per year. But
there was an accelerated drop-off in mail volume per customer after 2006, resulting in
constant dollar revenue per delivery point decreasing 6.3 percent per year, on average,
during this latter period.

         Table 6: Actual Average Annual Percentage Change in Constant Dollar Revenue,
                 Delivery Points, and Constant Dollar Revenue per Delivery Point
                                                  2000-2006     2006-2010
                   Constant Dollar
                                                    -0.6%         -5.3%
                   Revenue
                   Delivery Points                  1.4%           1.0%
                   Constant Dollar
                   Revenue per Delivery             -2.0%         -6.3%
                   Point



Table 7 shows the financial impact of the post-2006 decline in mail volume by
comparing actual net income for the years 2007 through 2010 with the projected net
income under the assumption that the 2000-2006 trend in mail volume per delivery point
continued through 2010.




                                                     35
U.S. Postal Service Office of Inspector General                                                          April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                             RARC-WP-13-007

               Table 7: Actual Net Income under the Price Cap Compared to Net Income
                              If There Had Not Been a Recession-Driven
                        Accelerated Decline in Mail Volume per Delivery Point
                                                 (billions of dollars)
                      Net Income by Year           2007          2008         2009         2010

                      Actual Net Income under the Price
                      Cap
                         Revenue                   75.0          75.0         68.1         67.1
                         Expense                   80.1          77.8         71.9         75.6
                         Net Income                 -5.1         -2.8          -3.8         -8.5

                      Counterfactual: Net Income Under
                      the Price Cap with No Recession-
                      Driven Accelerated Decline in Mail
                      Volume per Delivery Point
                         Revenue                   75.2          77.9         78.5         79.7
                         Expense                   80.4          80.1         80.5         86.3
                         Net Income                 -5.2         -2.3          -2.0         -6.5



The scenario with no recession-driven accelerated decline in mail volume per delivery
point actually increases the deficit by $0.1 billion in 2007 due to the relatively small
actual decline in mail volume in that year. In 2008, the actual accelerated decline in mail
volume per delivery point increased the deficit by approximately $0.5 billion from what it
otherwise would have been. For 2009 and 2010, the actual accelerated declines in mail
volume per delivery point increased the deficit by about $1.8 billion and $2.0 billion,
respectively.

Estimating the Impact of a Revenue-per-Delivery Point Cap and Hybrid Cap

To estimate the degree to which an RDP cap would have reduced the Postal Service
deficit during the study period, we assume that the RDP cap would have been in place
when a CPI-based rate change first occurred in 2008. A CPI-based RDP cap allows
rates to increase with the CPI minus the percentage change in the constant dollar
revenue-per-delivery point.76 Since actual constant dollar revenue per delivery point is
decreasing, the allowed rate increase under the RDP cap would be higher than that
allowed under the CPI-based price cap. Drawing on the more detailed discussion of the
revenue-per-customer cap in Appendix A, the RDP cap formula can be written as
follows:

%Ratet  %CPI t 1  %ConstantDollarRevenuePerDeliveryPoint t 1                                  (B-8)




76
   Since the increase in the CPI for a given year cannot be known until that year is over, the rate increase for a given
year is based on the previous year’s increase in the CPI. Likewise the RDP increase is based on the previous year’s
increase in the CPI and the previous year’s change in constant dollar revenue-per-delivery point.


                                                           36
U.S. Postal Service Office of Inspector General                                                 April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                    RARC-WP-13-007


In this analysis, we use the actual outcomes under the CPI-based price cap as our
baseline and determine how total revenue and total expense would have changed
under the CPI-based RDP cap. For example, if we determined that a CPI-based RDP
cap would have allowed rates to increase one percentage point more than would the
CPI-based price cap in a study year, we then analyze the impact of the additional one
percentage point increase in rates on mail volumes for market dominant products. The
one percentage point increase in rates and the change in mail volumes can then be
used to determine the change in total revenue from the revenue actually reported in that
year. Similarly we use the change in mail volumes to calculate the change in costs,
using the volume variable cost estimates reported in the Cost and Revenue Analysis
reports.

The constant dollar revenue data used in the RDP cap formula are taken from the
nonpublic Postal Service total factor productivity database, while the volume variable
costs are taken from the nonpublic Postal Service Cost and Revenue Analysis reports.
The price elasticities used in the analysis are taken from the Postal Service econometric
demand equations for market dominant products, as prepared for and reported to the
Postal Regulatory Commission.77

The hybrid cap analysis is similar to the RDP cap analysis, with the main difference
being the magnitude of the allowed rate increase. As shown in Appendix A, the hybrid
cap formula increases rates by the increase in the CPI, minus the product of (a) the
percentage increase in constant dollar revenue-per-delivery point and (b) one minus the
elasticity of cost with respect to output. The hybrid cap formula can be written as
follows, where εy represents the elasticity of cost with respect to output

%  Rate t  %  CPI t 1  1   y %  ConstantDo llarRevenu ePerDelive ryPoint t 1    (B-9)

As a proxy for the output cost elasticity, we use the ratio of total volume variable cost in
the Postal Service divided by total expense. Since volume variable cost per piece is the
Postal Service estimate of marginal cost for each subclass of mail, the ratio of total
volume variable cost to total expense is a reasonable estimate of the cost elasticity. In
2010, this ratio was .5469, so in our simulations the hybrid cap formula has the form:

% Rate t  % CPI t 1  .4531  % ConstantDo llarRevenu ePerDelive ryPoint t 1         (B-10)

Table 8 compares the actual financial results for the years 2008 through 2010 with the
results under both an RDP cap and a hybrid cap.




77
  U.S. Postal Service, Econometric Demand Equation Tables for Market Dominant Products as of January, 2012,
January 20, 2012, http://www.prc.gov/prc-pages/library/usps-periodic-reports/.




                                                       37
U.S. Postal Service Office of Inspector General                                     April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                        RARC-WP-13-007

         Table 8: Actual Net Income and Net Income under an RDP Cap and a Hybrid Cap

                                              (billions of dollars)
                          Net Income by Year         2008        2009    2010

                          Actual Net Income
                            Revenue                   75.0        68.1   67.1
                            Expense                   77.8        71.9   75.6
                            Net Income                -2.8        -3.8   -8.5
                          Net Income under an RDP Cap
                            Revenue                   76.0        71.4   74.8
                            Expense                   77.6        71.1   73.5
                            Net Income                -1.6        0.3     1.2
                            Additional Rate
                            Increase over CPI
                            Price Cap                2.3%        5.6%    12.2%
                          Net Income under a Hybrid Cap
                            Revenue                   75.4        69.6   70.4
                            Expense                   77.8        71.5   74.6
                            Net Income                -2.3        -2.0   -4.2
                            Additional Rate
                            Increase over CPI
                            Price Cap                1.0%        2.5%    5.5%



Under the RDP cap, the $2.8 billion loss in 2008 is reduced to a $1.6 billion loss. In
2009, the $3.8 billion loss is completely eliminated, while in 2010, the $8.5 billion loss
becomes a $1.2 billion surplus. While the RDP cap recovers all costs, including retiree
health benefit costs, during this period, it does so through substantial rate increases,
particularly in 2010 when rates increase an additional 12.2 percent over the CPI-based
price cap.

Under the hybrid cap, the losses are reduced but not eliminated. In 2008, the hybrid cap
reduces the deficit by approximately $0.5 billion through increasing rates an additional
1.0 percentage points over the CPI-based price cap. In 2009, the hybrid cap reduces
the deficit by approximately $1.8 billion, with rates increasing 2.5 percentage points
above the increase in the CPI. In 2010, which had the most severe reduction in mail
volume, the hybrid cap reduces the deficit by approximately $4.3 billion through an
additional 5.5 percent rate increase over the CPI-based price allowance.




                                                       38
U.S. Postal Service Office of Inspector General                                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                           RARC-WP-13-007




Appendix C                 Simulations of Price Caps, Revenue-per-Delivery
                           Point Caps, and Hybrid Caps,
                           FY 2010 – FY 2015

The simulations of Postal Service net income under price caps, revenue-per-delivery
point caps, and hybrid caps are based on a stylized model of Postal Service revenues
and costs. The stylized model starts with a base period of 2010 and simulates results
for 2011 through 2015.

Basic Structure of the Stylized Model

In our analysis we focus on Postal Service costs and revenues that are driven by
current economic activity.78 Postal Service revenue is driven by the rates that the Postal
Service charges for its products and the quantities of those products purchased by the
public. Postal Service rates for market dominant products are determined by the price
cap, the revenue-per-delivery point (RDP) cap, or the hybrid cap, while prices for
competitive products are determined by market conditions. The quantities purchased by
consumers are driven by economic trends and the price elasticities of customer
demand. Consequently, in order to model Postal Service revenue in the alternative
scenarios, we determine the market dominant rates allowed under the price cap, the
RDP cap, or the hybrid cap; project the prices of competitive products; and project the
quantities based on market conditions and customer responses to prices.

Postal Service costs are driven by the prices that the Postal Service pays for its inputs
and the input quantities it uses. To model the quantity of input used, we rely on the total
factor productivity (TFP) model used by the Postal Service. That total factor productivity
model is based on the relationship between workload and input. Workload (W) is driven
by the quantities of the products provided and the number of delivery points. By
definition, the percentage change in TFP is equal to the percentage change in workload
less the percentage change in the quantity of input (I):

%TFP  %W  %I                                                                                    (C-1)

Rearranging the terms in equation (C-1), we can model the percentage change in the
quantity of input as the percentage change in workload less the percentage change in
TFP:

%I  %W  %TFP                                                                                    (C-2)



78
   Revenues and costs not associated with current economic activity include fair value adjustments to workers
compensation liabilities, postage in the hands of the public adjustments, and retiree health benefit expenses not
related to current economic activity. In our projections, we keep these revenues and costs at their 2010 levels so that
the simulations focus on the impact of rate regulation on Postal Service finances.


                                                          39
U.S. Postal Service Office of Inspector General                                                      April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                         RARC-WP-13-007


Consequently, in order to model Postal Service cost, we project the rate at which the
prices of input increase, project the rate at which delivery points increase, use the
projections of output quantities to project the percentage changes in workload, project
the rate at which Postal Service TFP increases, and use the workload and TFP
projections to project the quantity of input.

Assumptions Concerning the Consumer Price Index, TFP Growth, and Input Price
Growth

Under the current price cap plan, rates for Postal Service market dominant products are
allowed to increase at the Consumer Price Index (CPI) growth rate. As there is no X-
factor applied to the CPI, a conventional interpretation of this price cap formula is that
Postal Service TFP growth should match TFP growth in the U.S. economy and Postal
Service input price growth should match economy-wide input price growth. We make
these assumptions explicit in the modeling, namely we specify economy-wide rates of
input price growth and TFP growth, and then project that the Postal Service matches
those rates of growth.

In these scenarios, we assume that the CPI increases 2.0 percent per year. We also
assume that TFP growth in the U.S. economy matches its recent trend of 0.7 percent
per year. As discussed in Appendix A, these assumptions concerning CPI growth and
TFP growth imply that economy-wide input price growth is 2.7 percent per year.79 We
assume that the Postal Service TFP growth is 0.7 percent per year during the period
2011 through 2015 and Postal Service input price growth is 2.7 percent per year. As
discussed in the main body of the report, Postal Service TFP growth has been very
similar to economy-wide TFP growth, while Postal Service input price growth has been
somewhat greater than input price growth in the economy. Thus these assumptions
represent a challenging but potentially achievable benchmark for the Postal Service. If
the Postal Service is not able to match the rates of TFP growth or if its rate of input price
growth exceeds that of the economy, then Postal Service net income would be reduced.

We note that the qualitative results from these scenarios are not sensitive to alternative
assumptions concerning the growth rates of CPI and TFP.

Assumptions Concerning Postal Service Output Growth and Delivery Point
Growth

In our scenarios, we project that delivery points increase 1.1 percent per year. This is
the rate projected by Boston Consulting Group (BCG) in its March 2010 report on Postal
Service mail volume.80 We consider three alternative rates of output growth in these
scenarios. The first (optimistic) projection assumes that output increases 1.1 percent
per year, the rate at which delivery points increase. While this projection is not intended
79
   Equation (A-4) of Appendix A shows that output price growth is equal to input price growth less total factor
productivity growth. Thus, input price growth is equal to output price growth plus total factor productivity growth.
80
   Boston Consulting Group, Projecting U.S. Mail Volumes to 2020, March 2, 2010, http://about.usps.com/future-
postal-service/gcg-narrative.pdf, p. 12. BCG projects delivery points to increase 13 percent between 2009 and 2020,
which translates into an average annual increase of 1.1 percent.


                                                         40
U.S. Postal Service Office of Inspector General                                                      April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                         RARC-WP-13-007


to be a realistic forecast of the future, it does point out the fact that a price cap works
reasonably well when output is increasing at the same rate as delivery points, and in
fact the price cap produces the same outcomes as the RDP cap and hybrid cap under
these special circumstances. The second (BCG) baseline projection assumes that
output decreases at a rate of 1.9 percent per year. This is derived from the rate at which
BCG projects constant dollar revenue will decline.81 The third (pessimistic) projection
assumes that output decreases at a rate of 4.0 percent per year. This approximates the
BCG “worst case” scenario.82

These projections are based on the assumption that rates for all Postal Service outputs
increase at the same rate as the CPI. To the extent that Postal Service rates for market
dominant products deviate from the CPI-growth path, we adjust the output quantities for
those subclasses by applying own price elasticities to the deviations of these rates from
the CPI path. We use the price elasticities for the market dominant products submitted
by the Postal Service to the Postal Regulatory Commission in January 2011. For
competitive products, we assume that market competition does not allow Postal Service
rates to deviate from the CPI path.

Price Cap, RDP Cap, and Hybrid Cap Formulas

CPI-Based Formulas
The CPI-based price cap index has a very simple structure: the allowed percentage
increase in market dominant rates in a given year is equal to the percentage change in
the CPI in the previous year:

%Ratet  %CPIt 1                                                                                       (C-3)

As discussed in Appendix A, the revenue-per-customer cap or RDP cap has an
additional term that reflects the percentage change in constant dollar revenue-per-
delivery point. Since the percentage changes for constant dollar revenue and delivery
points for a given year are not known until the end of that year, the formula uses the
percentage changes for the previous year. Consequently the RDP cap formula has the
form:

%Ratet  %CPI t 1  %ConstantDollarRevenue  %DeliveryPoints t 1                                  (C-4)


Finally, the hybrid cap has the form:

%Ratet  %CPI t 1  1   y %ConstantDollarRevenue t 1  % DeliveryPoints t 1  (C-5)


81
   BCG projects constant dollar revenue-per-delivery point to decrease 29 percent between 2009 and 2020.
Combined with BCG’s delivery point projection, this implies real revenue will decrease, on average, by 1.9 percent
per year.
82
   U.S. Postal Service, Ensuring a Viable Postal Service for America: An Action Plan for the Future, March 2010,
http://about.usps.com/future-postal-service/actionplanforthefuture-march2010.pdf, p. 7.


                                                         41
U.S. Postal Service Office of Inspector General                                      April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                         RARC-WP-13-007


where εy represents the elasticity of cost with respect to output. As a proxy for this
output cost elasticity, we use the ratio of total volume variable cost to total expense.
Since volume variable cost per piece is the Postal Service estimate of marginal cost for
each subclass of mail, the ratio of total volume variable cost to total expense is a
reasonable estimate of the cost elasticity. In 2010, this ratio was .5469, so in our
simulations the hybrid cap formula has the form:

% Ratet  % CPI t 1  .4531% ConstantDo llarRevenue t 1  % DeliveryPoints t 1  (C-6)

Cost Reductions from Legislative Action and Adjustments to 2010 Rates

The starting point for our simulations is Postal Service revenues and expenses in 2010.
However, since the Postal Service lost $8.5 billion in that year, scenarios which make
no adjustments to 2010 rates before projecting results for subsequent years generally
produce significant losses in those future years. Therefore we consider scenarios where
Congress grants $5 billion in assistance through a reduction in benefits costs. This
assistance reduces Postal Service expense by $5 billion in each year of the analysis.
We also consider additional scenarios where both $5 billion in Congressional assistance
is granted and 2010 rates are adjusted to eliminate the remaining net loss in 2010. The
2010 rate adjustments only apply to market dominant products, and the calculation
takes into account the price elasticities of demand for market dominant products.

Simulation Results

The simulations are based on three alternative starting points for 2010. Under the first
alternative, no adjustments are made to 2010 revenues and expenses. Under the
second alternative, $5 billion in Congressional assistance is granted for retiree health
benefit liabilities. Under the third alternative, $5 billion in assistance is granted and 2010
rates are adjusted to eliminate the remaining deficit in that year. We also base the
scenarios on the three different mail volume growth assumptions. These alternatives
result in nine price cap scenarios, nine RDP cap scenarios, and nine hybrid cap
scenarios. Table 11 shows the resulting net income for these 27 scenarios. Scenarios 7,
16, and 25 are interesting because they show the results when rates are adjusted to
eliminate the deficit in 2010, and output grows at the same rate as delivery points, which
is the optimistic output growth assumption. In these scenarios, net income remains
close to zero throughout the simulation period. One can also see from the table that
price caps, RDP caps, and hybrid caps produce the same results under the other two
sets of optimistic output growth scenarios (Scenarios 1, 10, and 19; and Scenarios 4,
13, and 22), where output grows at the same rate as delivery points. For example,
Scenarios 1, 10, and 19 all show a net loss of $8.5 billion in 2010 and a net loss of $9.1
billion in 2015.

While the price caps show larger net losses in the pessimistic output growth scenarios
than in the BCG baseline output growth scenarios, the pessimistic output growth
scenarios show larger net income gains (or smaller net losses) in the RDP scenarios.
For example, price cap Scenario 9 with pessimistic output growth shows a net loss of


                                                  42
U.S. Postal Service Office of Inspector General                               April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                  RARC-WP-13-007


$5.1 billion in 2015 compared to a net loss of $3.3 billion in price cap Scenario 8 with
BCG baseline output growth. The RDP cap Scenario 18 with pessimistic output growth
shows net income of $11.6 billion in 2015, compared to $7.1 billion in the RDP cap
scenario 17 with BCG baseline output growth.

Finally, the hybrid cap shows relative stability as one moves from the BCG baseline
output growth projection to the pessimistic output growth projection. For example, in
Scenario 26 with BCG baseline output growth, net income is $0.8 billion in 2015, while
net income is $1.5 billion in 2015 under Scenario 27 with pessimistic output growth.




                                                  43
                                                                                                                                                                            Revisiting the CPI-Only Price Cap Formula
                                                                                                                                                                            U.S.
                                                                                                                                                                            Revisiting
                                                                                                                                                                            U.S. Postal Service Office of Inspector General
                                      Table 9: Simulation Results for Price Caps, RDP Caps, and Hybrid Caps




                                                                                                                                                                                 Postalthe
                                             BCG                                                                                                                  Mail
                 Price (P),   Optimistic   Baseline   Pessimistic                                         Net Income (billions of dollars)                      Volume
                RDP (R), or    Output       Output      Output      $5 Billion   Breakeven                                                                      in 2015
     Scenario   Hybrid (H)     Growth      Growth       Growth       Relief?       Start?    FY2010    FY2011    FY2012    FY2013      FY2014        FY2015    (billions)




                                                                                                                                                                                        Service
        1           P             X                                    No           No         (8.5)     (8.6)     (8.7)      (8.8)          (9.0)     (9.1)     181




                                                                                                                                                                                           CPI-Only
        2           P                         x                        No           No         (8.5)     (9.2)     (9.8)     (10.5)     (11.1)        (11.8)     155




                                                                                                                                                                                                Office
        3           P                                     x            No           No         (8.5)     (9.5)    (10.5)     (11.4)     (12.4)        (13.3)     140
        4           P             X                                    Yes          No         (3.5)     (3.6)     (3.7)      (3.8)          (4.0)     (4.1)     181




                                                                                                                                                                                                     Price
                                                                                                                                                                                                       of Inspector
        5           P                         x                        Yes          No         (3.5)     (4.2)     (4.8)      (5.5)          (6.1)     (6.8)     155




                                                                                                                                                                                                           Cap Formula
        6           P                                     x            Yes          No         (3.5)     (4.5)     (5.5)      (6.4)          (7.4)     (8.3)     140
        7           P             X                                    Yes         Yes          0.0      (0.0)     (0.0)        0.0           0.0       0.0      178
        8           P                         x                        Yes         Yes          0.0      (0.6)     (1.3)      (1.9)          (2.6)     (3.3)     153




                                                                                                                                                                                                                    General
        9           P                                     x            Yes         Yes          0.0      (1.1)     (2.1)      (3.1)          (4.1)     (5.1)     138


       10           R             X                                    No           No         (8.5)     (8.6)     (8.7)      (8.8)          (9.0)     (9.1)     181
       11           R                         x                        No           No         (8.5)     (7.6)     (6.3)      (4.9)          (3.4)     (1.9)     148
       12           R                                     x            No           No         (8.5)     (6.9)     (4.7)      (2.3)           0.2       2.7      128
44




       13           R             X                                    Yes          No         (3.5)     (3.6)     (3.7)      (3.8)          (4.0)     (4.1)     181
       14           R                         x                        Yes          No         (3.5)     (2.6)     (1.3)        0.1           1.6       3.1      148
       15           R                                     x            Yes          No         (3.5)     (1.9)       0.3        2.7           5.2       7.7      128
       16           R             X                                    Yes         Yes          0.0      (0.0)     (0.0)        0.0           0.0       0.0      178
       17           R                         x                        Yes         Yes          0.0       1.0        2.4        3.9           5.5       7.1      146
       18           R                                     x            Yes         Yes          0.0       1.7        4.0        6.4           9.0      11.6      127


       19           H             X                                    No           No         (8.5)     (8.6)     (8.7)      (8.8)          (9.0)     (9.1)     181
       20           H                         x                        No           No         (8.5)     (8.4)     (8.3)      (8.2)          (8.0)     (7.9)     152
       21           H                                     x            No           No         (8.5)     (8.3)     (8.0)      (7.7)          (7.4)     (7.1)     135
       22           H             X                                    Yes          No         (3.5)     (3.6)     (3.7)      (3.8)          (4.0)     (4.1)     181
       23           H                         x                        Yes          No         (3.5)     (3.4)     (3.3)      (3.2)          (3.0)     (2.9)     152




                                                                                                                                                                            DRAFT
                                                                                                                                                                             RARC-WP-XX-XXX
       24           H                                     x            Yes          No         (3.5)     (3.3)     (3.0)      (2.7)          (2.4)     (2.1)     135




                                                                                                                                                                              RARC-WP-13-007
       25           H             X                                    Yes         Yes          0.0      (0.0)     (0.0)        0.0           0.0       0.0      178




                                                                                                                                                                                 April 12, 2013
                                                                                                                                                                                  June 7, 2012
       26           H                         x                        Yes         Yes          0.0       0.1        0.3        0.5           0.6       0.8      150
       27           H                                     x            Yes         Yes          0.2       0.3        0.6        0.9           1.2       1.5      133
U.S. Postal Service Office of Inspector General                                                     April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                        RARC-WP-13-007




Appendix D                The Use of X-, Y- and Z-Factors

In this appendix, we discuss the use of X-, Y- and Z-factors. While these adjustment
factors can improve the CPI-based price cap, a postal price cap that includes these
adjustment factors would remain unstable due to falling mail volumes. After a general
discussion of X-, Y-, and Z-factors, we demonstrate how these factors could be
incorporated into price cap, RDP cap, and hybrid cap formulas. Finally, we rerun the
simulation scenarios reported in Appendix C with the inclusion of X-, Y-, and Z-factors.

X-, Y-, and Z-Factors in Price Cap Regulation

Price cap formulas start with a measure of inflation (called the inflation factor), such as
the CPI (which is used in the Postal Service price cap formula). Most price cap formulas
also include various adjustments to the inflation factor, which are generically called X-,
Y-, and Z-factors. While X-, Y-, and Z-factors are similar in that they make adjustments
to the inflation factor calculation, they differ in the way they are calibrated. Price cap
formulas are generally implemented for a given period of time — typically 3 to 5 years
— after which there is a review of the price cap plan and the regulator determines
whether any changes should be made to the elements of the plan.83

The numerical value for the X-factor is determined at the beginning of the price cap
period and applied in each year during the plan period. For example, suppose that a
regulator puts a price cap plan into effect in 2011, with a scheduled review in 2016. The
regulator also determines that during this five-year period, the X-factor will have a value
of 1 percent. Suppose that the inflation factor for 2012 shows a 3-percent increase. The
X-factor would then reduce the allowable rate increase by 1 percentage point, leading to
an allowed rate increase of 2 percent. Similarly, if the inflation factor increases 2 percent
in 2013, then the allowable rate increase will be 1 percent in that year.

Almost all price cap plans have an X-factor. The U.S. Postal Service cap is a major
exception. In North American regulation, determination of the X-factor is generally
based on a detailed analysis of productivity and input price trends. The derivation of this
price cap formula was presented in Appendix A. Outside of North America, basing the
X-factor on forecasts of future year revenue requirements is popular.

The Y-factor is an adjustment for costs that are outside the control of the regulated firm,
occur regularly, and can be calibrated in a straightforward way. The Y-factor acts as a
cost pass-through, with changes in these costs leading to changes in the price cap on a
dollar-for-dollar basis.


83
  For example, the initial terms were 3 years for the AT&T price cap plan and 5 years for the Union Gas price cap
plan. See Federal Communications Commission, Report and Order, CC Docket No. 87-313, April 17, 1989, p. 266;
and Ontario Energy Board, Union Gas Limited Settlement Agreement, Docket EB-2007-0606, January 17, 2008,
Schedule A, p. 20.


                                                        45
U.S. Postal Service Office of Inspector General                                   April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                      RARC-WP-13-007


A Z-factor is also an adjustment for changes in costs that are outside the control of the
regulated firm’s management, but it is designed for changes that only occur infrequently
during the term of the price cap and are not subject to straightforward calibration.
Generally, the regulator reviews each petition for a Z-factor, determining whether it
meets the criteria that it set out for Z-factors at the beginning of the price cap period. For
a cost change to be eligible for Z-factor treatment, the cost change must be outside the
control of the regulated firm, not be implicit in the inflation factor, and be of “material”
size.

The derivation and use of X-factors is discussed in Appendix A. The following
subsections discuss Y- and Z-factors in more detail and the circumstances under which
they might be included in a postal price cap.

What Costs Are Usually Covered under a Y-Factor?
Y-factors are not as common as Z-factors in price cap regulation, but there are
examples of their use in the telecom, electric utility, and gas utility industries. In the
telecom industry, the Federal Communications Commission (FCC) allowed Y-factor
treatment of access charges in the 1989 AT&T price cap plan. Access charges, which
are charges that the local exchange carriers assess long distance carriers to initiate and
complete calls, are regulated by the FCC at the interstate level and by state utility
commissions at the intrastate level. These costs are a significant portion of long
distance carrier total costs. These access charges were outside the control of AT&T
(since these charges were regulated at the federal and state levels) and easily identified
and calibrated.

Costs that are given Y-factor treatment for electric and gas utilities include upstream
natural gas and electricity charges (i.e., the rates charged by natural gas suppliers and
electric generators), and demand side management costs (i.e., costs associated with
programs that reduce customer usage).

What Postal Service Costs Should Be Included in a Y-Factor?
We have reviewed a number of Postal Service costs that are potential candidates for Y-
factor or Z-factor treatment. Table 10 lists various candidates for Y-factor treatment. In
the second column we indicate whether there are Y-factors in other industries that are
similar to the listed candidates, and in the third column we include our notes concerning
whether the candidates should be included in a Y-factor, based on Christensen
Associates’ analysis and experience with incentive regulation in other regulated
industries.




                                                  46
U.S. Postal Service Office of Inspector General                                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                           RARC-WP-13-007

                     Table 10: Potential Y-Factors for Exogenous and Recurring Costs
                               Similar to Y-
          Candidate           Factor in other         Potential USPS                          Notes
                               Industries?              Y-Factor?
  Pension
     CSRS                           No                        No
     FERS                           No                        No

  Health-Related
     RHBF                           No                        Yes
     Workers Comp                   No                        No
     FEHB                           No                        No

  Infrastructure
     Post Office closing                          More like a Z-factor, but   Limits management ability to control
                                    No
     restrictions                                 difficult to quantify       costs
     Plant closing                                More like a Z-factor, but   Limits management ability to control
                                    No
     restrictions                                 difficult to quantify       costs

  Service
                                                                              Like service standards in other
     6-day rider                    No                        No
                                                                              industries
                                                                              Like service standards in other
     Alaska bypass                  No                        Yes
                                                                              industries
     Max degree of                                                            Like service standards in other
                                    No                        No
     service/rural                                                            industries

  Wages
     COLA                           No                        No
     PCES & EAS                     No                        No
     Complement                     No                        No

  Benefits
     Exec HC premium                No                        No
     Non-exec HC prem.              No                        No

  Energy
     Diesel & Gasoline        Fuel adjustment                 Yes             Likely small for USPS
     Aircraft fuel            Fuel adjustment            Likely Yes           Data availability issues
     Electricity                    No                        No

  Non-energy
     General inflation              No                        No
     Maintenance                    No                        No
     Materials                      No                        No

  USO
                                                                              No precedent to use as source of
     USO                            No                         ?
                                                                              USO funding




                                                         47
U.S. Postal Service Office of Inspector General                                                      April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                         RARC-WP-13-007


What Costs Are Usually Covered under a Z-Factor?
In some instances, the regulator identifies particular types of costs for which Z-factors
will be allowed. For example, the FCC specified the following types of cost changes for
Z-factor treatment in the AT&T price cap plan access charges paid by AT&T;
Separations Manual changes (i.e., changes to the formulas that assign costs to different
types of telephone service); and changes in the Uniform System of Accounts (the FCC-
mandated accounting system).

In other instances, the regulator sets up general rules for determining whether a cost is
eligible for Z-factor treatment. For example, the California Public Utilities Commission
required that:

        the cost be exogenous,
        the event occur after the beginning of a price cap period,
        the cost be clearly beyond management control,
        the cost not be a normal part of doing business,
        the event have a disproportionate effect on the regulated telecom company,
        the cost not be reflected in the inflation index,
        the event have a major impact on company costs,
        the cost be determined with relative certainty, and
        the cost be reasonable.

Under these criteria, the Commission allowed Z-factor treatment for Statement of
Financial Accounting Standards (SFAS) 106 accounting changes.84

What Postal Service Costs Should Be Included in a Z-Factor?
Table 11 shows potential candidates for Z-factor treatment in a Postal Service price
cap, lists whether similar costs are treated as Z-factors in other industries, and indicates
our notes concerning Z-factor treatment.




84
   SFAS 106, released in 1990, established financial accounting standards for post-retirement benefits other than
pensions. These standards established the practice of recording these benefits on an accrual basis instead of on a
pay-as-you-go basis.


                                                         48
U.S. Postal Service Office of Inspector General                                          April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                             RARC-WP-13-007

                        Table 11: Potential Z-Factors for One-Time Cost Changes
                           Similar to Z-Factor in    Potential USPS
         Candidate                                                                  Notes
                             Other Industries?         Z-Factor?
Wages
  COLA                               No                   No
  PCES & EAS                         No                   No
  Complement                         No                   No

Legal Claims
                                                                      Presumably the result of
  Legal Claims                       No                   No
                                                                      management action

Benefits
  Exec HC premium                    No                   No
  Non-exec HC prem.                  No                   No

Contractors
  Inefficiency                       No                   No
                                                                      Presumably the result of
  Litigation                         No                   No
                                                                      management action

Energy
  Transportation fuel        Typically a Y-factor         No          Likely small for USPS
  Electricity                        No                   No

Non-energy
  General inflation                  No                   No
  Maintenance                        No                   No
  Materials                          No                   No

Change in mail mix
  Change in mail mix                 No                   No

Non-economic causes
  Attack on US                       No                   Yes         May call for exigent rate case
  Attack on USPS                     No                   Yes         May call for exigent rate case
  Natural disaster                   No                   Yes         May call for exigent rate case

Economic causes
  General recession                  No                   No          May call for exigent rate case
  Competition                        No                   No          May call for exigent rate case




Simulations with X-, Y-, and Z-Factors

To illustrate how a Postal Service price cap can accommodate X-, Y-, and Z-factors, we
consider scenarios where surface transportation fuel cost changes are passed through
to rates via a Y-factor, expenses related to a set of hypothetical terrorist attacks are




                                                    49
U.S. Postal Service Office of Inspector General                                      April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                         RARC-WP-13-007


passed through via a Z-factor, and a program of specified network cost reductions are
incorporated into the price cap via an X-factor.

Cap Formulas with X-, Y-, and Z-factors
The price cap formula with X-, Y-, and Z-factors is as follows:

%Ratet  1  FuelCostSharet 1   %CPI t 1  X  Z 
                                                                                          (D-1)
 FuelCostSharet 1 %FuelCost t 1  %ConstantDollarRevenuet 1 


The RDP cap formula with X-, Y-, and Z-factors is as follows:

%Ratet
 1  FuelCostSharet 1  
                                                                                          (D-2)
%CPI t 1  X  Z  %ConstantDollarRevenuet 1  %DeliveryPointst 1 
 FuelCostSharet 1 %FuelCost t 1  %ConstantDollarRevenuet 1 


Finally, the hybrid cap formula with X-, Y-, and Z-factors is as follows:

%Ratet
 1  FuelCostSharet 1  
%CPI t 1  X  Z  .4531  %ConstantDollarRevenue t 1  %DeliveryPointst 1 
 FuelCostSharet 1 %FuelCost t 1  %ConstantDollarRevenue t 1                      (D-3)

Values of X-, Y-, and Z-Factors used in Simulations
The X-factor calculation is based on the network cost reduction goals found in H.R.
2309. As introduced, the bill’s network optimization target is to reduce combined retail
and processing network costs by $2 billion. In these scenarios, we phase in these cost
reductions over 5 years at a savings of $400 million per annum. Dividing these annual
cost savings by base year total revenue of $67 billion yields an X-factor of 0.6 percent.

An X-factor in the Postal Service CPI-based price cap formulation represents the
expected difference between Postal Service productivity growth and economy-wide
productivity growth.85 Thus, an X-factor of 0.6 implies that Postal Service productivity
growth would be expected to outperform the overall economy by 0.6 percent per year.
Because actual Postal Service productivity growth has been approximately equal to
economy-wide productivity growth over time, this X-factor (or any positive X-factor) is
equivalent to imposing a “stretch factor” on the Postal Service. The purpose of a stretch
factor is to account for the expected increase in the firm’s productivity growth due to the



85
     See Appendix A.


                                                  50
U.S. Postal Service Office of Inspector General                                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                                           RARC-WP-13-007


incentives provided by price cap regulation.86 Given the circumstances under which the
Postal Service is operating — financial stress and declining volumes — a positive X-
factor (i.e., a stretch factor) in the postal price cap formula would not be advisable
unless it was offered as a quid-pro-quo for some type of relief in addition to relief from
the $5 billion Postal Service retiree health benefit obligation.87

Postal Service surface transportation fuel costs were $1.1 billion in 2010, or
approximately 1.6 percent of total revenue. Consequently, the Y-factor designed to
adjust rates for changes in surface transportation fuel costs has relatively little impact on
the price cap. Table 12 shows the fuel cost projections that we use in our analysis.

                                Table 12: Surface Transportation Fuel Costs
                                                Year           Fuel Costs
                                             2010               $1,087M
                                             2011               $1,400M
                                             2012               $1,434M
                                             2013               $1,477M
                                             2014               $1,307M
                                             2015               $1,385M


The Z-factor calculation is based on the amount appropriated by Congress for the
Postal Service response to the 9/11 and anthrax attacks. In response to these attacks,
the Postal Service developed an Emergency Preparedness Plan to protect employees
and customers from exposure to infectious biohazard agents, to screen and sanitize the
mail, to decontaminate mail processing plants affected by anthrax, and to repair or
replace postal facilities damaged in the 9/11 attacks. Table 13 shows the amounts used
to calculate the Z-factors.




86
   For example, the FCC implemented a 0.5 percent stretch factor, called a Consumer Productivity Dividend, in the
AT&T and initial local exchange carrier price cap plans. See Federal Communications Commission, Report and
Order, CC Docket No. 87-313, April 17, 1989, p. 125.
87
   As demonstrated in Table 18, even with $5 billion in assistance with benefit obligations and a breakeven start, a
price cap with X-, Y- and Z-factors would result in negative net income in all years, 2011-2015.


                                                          51
U.S. Postal Service Office of Inspector General                                         April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                            RARC-WP-13-007

                                     Table 13: Z-Factor Calculation
                  Original Funding Source Year     Financial Impact   Year Applied
                 FY 2002 Appropriation                  $762M            2011
                 FY 2005 Appropriation                  $503M            2014


Calibration of the Z-factors is done in a manner similar to the X-factor calculation. The
$762 million expense to be applied in 2011 represents a Z-factor of 1.2 percent, while
the $503 million to be applied in 2014 represents a Z-factor of 0.8 percent. Since these
expenses are one-time occurrences, the Z-factors must be reversed in the subsequent
years for the caps to return to their long-run trajectories. Therefore the Z-factor in 2012
is -1.2 percent and the Z-factor in 2015 is -0.8 percent.

Simulation Results
The simulations reported in Table 14 consider caps with X-, Y-, and Z-factors and three
mail volume growth alternatives. We also consider whether (a) no adjustments are
made to 2010 revenues and expenses, (b) $5 billion in Congressional relief is granted
for Postal Service retiree health benefit liabilities, and (c) $5 billion in relief is granted
and 2010 rates are adjusted to eliminate the remaining deficit. These alternatives result
in nine price cap scenarios, nine RDP cap scenarios, and nine hybrid cap scenarios.

Since the formulas include an X-factor that requires $2 billion in savings over the five-
year period and since we do not increase the rate of Postal Service TFP growth to
accomplish this, all price cap and hybrid cap scenarios result in net losses in all years,
even for scenarios with a break-even start. However, reflecting its performance when
volumes are declining, the RDP cap with X-, Y- and Z-factors shows positive net
income:

       in 2015 with no relief or break-even start under the pessimistic output growth
        scenario (Scenario 39);

       in 2014 and 2015 with $5 billion in relief under the BCG baseline output growth
        scenario (Scenario 41);

       in 2013 through 2015 with $5 billion in relief under the pessimistic output growth
        scenario (Scenario 42); and

       in all years, 2011 through 2015, with $5 billion in relief and break-even start
        under both the BCG baseline and pessimistic output volume scenarios
        (Scenarios 44 and 45).




                                                  52
                                                                                                                                                                 Revisiting
                                                                                                                                                                 U.S.
                                                                                                                                                                 Revisiting the
                                                                                                                                                                 U.S. Postal Service Office of Inspector General
                                                 Table 14: Simulation Results with X-, Y-, and Z-Factors




                                                                                                                                                                      Postal
                Price (P),                  BCG
                RDP (R),     Optimistic   Baseline    Pessimistic     $5                                  Net Income (billions of dollars)
                or Hybrid     Output       Output       Output      Billion   Breakeven




                                                                                                                                                                            the CPI-Only
     Scenario      (H)        Growth      Growth        Growth      Relief?     Start?    FY2010     FY2011     FY2012      FY2013      FY2014        FY2015




                                                                                                                                                                             Service
       28           P            X                                    no         no          (8.5)      (9.3)      (9.3)        (9.8)        (10.2)     (10.8)




                                                                                                                                                                                CPI-Only Price
       29           P                        X                        no         no          (8.5)      (9.8)     (10.4)       (11.3)        (12.1)     (13.2)




                                                                                                                                                                                     Office
       30           P                                     x           no         no          (8.5)     (10.2)     (11.0)       (12.2)        (13.2)     (14.4)
       31           P            X                                   yes         no          (3.5)      (4.3)      (4.3)        (4.8)         (5.2)      (5.8)




                                                                                                                                                                                          Price Cap
                                                                                                                                                                                            of
       32           P                        X                       yes         no          (3.5)      (4.8)      (5.4)        (6.3)         (7.1)      (8.2)




                                                                                                                                                                                               Inspector
                                                                                                                                                                                                Cap Formula
       33           P                                     x          yes         no          (3.5)      (5.2)      (6.0)        (7.2)         (8.2)      (9.4)
       34           P            X                                   yes         yes          0.0       (0.7)      (0.6)        (1.0)         (1.3)      (1.8)




                                                                                                                                                                                                    Formula
       35           P                        X                       yes         yes          0.0       (1.3)      (1.9)        (2.8)         (3.6)      (4.7)




                                                                                                                                                                                                         General
       36           P                                     x          yes         yes          0.0       (1.8)      (2.7)        (3.9)         (5.0)      (6.3)


       37           R            X                                    no         no          (8.5)      (9.3)      (9.3)        (9.9)        (10.3)     (11.0)
       38           R                        X                        no         no          (8.5)      (8.6)      (7.2)        (6.3)         (5.2)      (4.1)
       39           R                                     x           no         no          (8.5)      (7.6)      (5.2)        (3.3)         (1.1)       0.9
53




       40           R            X                                   yes         no          (3.5)      (4.3)      (4.3)        (4.9)         (5.3)      (6.0)
       41           R                        X                       yes         no          (3.5)      (3.3)      (1.8)        (0.9)          0.3        1.3
       42           R                                     x          yes         no          (3.5)      (2.6)      (0.2)         1.7           3.9        5.9
       43           R            X                                   yes         yes          0.2       (0.5)      (0.4)        (0.9)         (1.2)      (1.8)
       44           R                        X                       yes         yes          0.0        0.3         1.8         2.8           4.1        5.2
       45           R                                     x          yes         yes          0.0        1.0         3.4         5.4           7.6        9.7

       46           H            X                                    no         no          (8.5)      (9.3)      (9.3)        (9.9)        (10.2)     (10.9)
       47           H                        X                        no         no          (8.5)     (10.5)     (10.4)       (10.7)        (10.8)     (11.0)
       48           H                                     x           no         no          (8.5)     (11.4)     (11.1)       (11.2)        (11.0)     (11.0)
       49           H            X                                   yes         no          (3.5)      (4.3)      (4.3)        (4.9)         (5.2)      (5.9)




                                                                                                                                                                 DRAFTApril
       50           H                        X                       yes         no          (3.5)      (5.5)      (5.4)        (5.7)         (5.8)      (6.0)




                                                                                                                                                                  RARC-WP-XX-XXX
                                                                                                                                                                   RARC-WP-13-007
       51           H                                     x          yes         no          (3.5)      (6.4)      (6.1)        (6.2)         (6.0)      (6.0)
       52           H            X                                   yes         yes          0.0       (0.4)      (0.3)        (0.7)         (1.0)      (1.5)




                                                                                                                                                                       June12,
       53           H                        X                       yes         yes          0.0       (2.1)      (1.9)        (2.2)         (2.2)      (2.5)




                                                                                                                                                                            7, 2012
       54           H                                     x          yes         yes          0.2       (2.8)      (2.6)        (2.7)         (2.5)      (2.6)




                                                                                                                                                                               2013
U.S. Postal Service Office of Inspector General                                        April 12, 2013
Revisiting the CPI-Only Price Cap Formula                                           RARC-WP-13-007




Appendix E               Economies of Density and Volume Growth

The financial health of a firm under a traditional price cap is highly dependent on output
growth. The following tables highlight the effects of changes in mail volume on the
Postal Service under a CPI-only price cap. All of the scenarios assume that Postal
Service begins the price cap period from a break-even position. Table 15 presents the
basic elements of the Postal Service cost structure.

                             Table 15: Postal Service Cost Structure 2010
                             Element                           2010 Value

                             Delivery Points*                  151

                             Mail Volume (annual)*             168,322

                             Volume Variable Cost ($)*         41,020

                             Total Cost ($)*                   70,806

                             Revenue per Piece ($)             0.421

                             Volume Variable Cost per
                                                               0.244
                             Piece ($)

                             Volume per Delivery Point         1285

                             Delivery Point Growth             1%

                             Inflation                         2%

                               *Millions

                           Sources: Costs and Volume – 2010 Cost and Revenue
                                    Analysis;
                                    Delivery point data – 2010 Annual Report;
                                    Inflation and Delivery Point Growth – assumed
                                    for analytical purposes




                                                     54
                                                                                                                                            Revisiting the CPI-Only Price Cap Formula
                                                                                                                                            U.S.
                                                                                                                                            Revisiting
                                                                                                                                            U.S. Postal Service Office of Inspector General
     Table 16 illustrates that when volume declines under a CPI-only price cap, a decline in volume as anticipated in the BCG
     baseline volume projection will create a revenue shortfall.




                                                                                                                                                 Postalthe
       Table 16: Revenue Shortfall with Baseline Revenue Weighted Volume Projection of 1.9 percent Decline under a CPI-Only Price Cap




                                                                                                                                                        Service
                               2010      2011      2012      2013      2014      2015      2016      2017      2018      2019      2020




                                                                                                                                                           CPI-Only
              Delivery
                               151.0     152.5     154.0     155.6     157.1     158.7     160.3     161.9     163.5     165.1     166.8




                                                                                                                                                                Office
              Points
              Mail
                              168,322   165,124   161,987   158,909   155,890   152,928   150,022   147,172   144,375   141,632   138,941




                                                                                                                                                                     Price
              Volume




                                                                                                                                                                       of Inspector
              Institutional




                                                                                                                                                                           Cap Formula
              Cost per
              Delivery        197.26    201.20    205.23    209.33    213.52    217.79    222.14    226.59    231.12    235.74    240.46
              Point ($)
              VV Cost




                                                                                                                                                                                    General
              per Mail         0.244     0.249     0.254     0.259     0.264     0.269     0.274     0.280     0.286     0.291     0.297
              Piece ($)
              Total
              Institutional
              Cost ($)        29,786    30,686    31,612    32,567    33,550    34,564    35,607    36,683    37,791    38,932    40,108
55




              Total
              Volume ($)
                              41,020    41,045    41,071    41,096    41,122    41,147    41,173    41,198    41,224    41,249    41,275
              Variable
              Cost
              Total Cost
                              70,806    71,731    72,683    73,663    74,672    75,711    76,780    77,881    79,015    80,181    81,383
              ($)
              Revenue
              per Piece        0.421     0.429     0.438     0.446     0.455     0.464     0.474     0.483     0.493     0.503     0.513
              ($)
              Total
              Revenue         70,806    70,850    70,894    70,938    70,982    71,026    71,070    71,114    71,158    71,202    71,246
              ($)
              Revenue
              Shortfall ($)     0        881       1,789     2,725     3,691     4,685     5,711     6,767     7,857     8,979    10,136




                                                                                                                                            DRAFT
              (-)




                                                                                                                                             RARC-WP-XX-XXX
                                                                                                                                              RARC-WP-13-007
                                                                                                                                                 April 12, 2013
                                                                                                                                                  June 7, 2012
                                                                                                                                                           Revisiting the CPI-Only Price Cap Formula
                                                                                                                                                           U.S.
                                                                                                                                                           Revisiting
                                                                                                                                                           U.S. Postal Service Office of Inspector General
     Table 17 demonstrates that the revenue shortfall will be larger if volume decreases at a faster rate than anticipated in the
     baseline projection.




                                                                                                                                                                Postalthe
      Table 17: Revenue Shortfall Increases with a Pessimistic Revenue Weighted Volume Projection of 4 Percent Decline under a CPI-Only




                                                                                                                                                                       Service
                                                                  Price Cap




                                                                                                                                                                          CPI-Only
                          2010       2011        2012        2013        2014        2015        2016        2017        2018        2019        2020




                                                                                                                                                                               Office
         Delivery
                          151.0     152.5       154.0       155.6       157.1       158.7       160.3       161.9       163.5       165.1       166.8
         Points




                                                                                                                                                                                    Price
                                                                                                                                                                                      of Inspector
         Mail
                         168,322   161,589.1   155,125.6   148,920.5   142,963.7   137,245.2   131,755.4   126,485.1   121,425.7   116,568.7   111,906




                                                                                                                                                                                          Cap Formula
         Volume
         Institutional
         Cost per
         Delivery        197.26     201.20      205.23      209.33      213.52      217.79      222.14      226.59      231.12      235.74      240.46




                                                                                                                                                                                                   General
         Point ($)
         VV Cost
         per Mail         0.244     0.249       0.254       0.259       0.264       0.269       0.274       0.280       0.286       0.291       0.297
         Piece ($)
         Total
         Institutional
56




         Cost ($)        29,786    30,685.54   31,612.24   32,566.93   33,550.45   34,563.68   35,607.5    36,682.84   37,790.67   38,931.94   40,107.69


         Total
         Volume ($)
                         41,020    40,166.78   39,331.31   38,513.22   37,712.15   36,927.74   36,159.64   35,407.52   34,671.04   33,949.88   33,243.73
         Variable
         Cost
         Total Cost
                         70,806    70,852.32   70,943.56   71,080.15   71,262.6    71,491.41   71,767.14   72,090.36   72,461.71   72,881.83   73,351.42
         ($)
         Revenue
         per Piece        0.421     0.429       0.438       0.446       0.455       0.464       0.474       0.483       0.493       0.503       0.513
         ($)
         Total
         Revenue         70,806     69,333      67,891      66,479      65,096      63,742      62,416      61,118      59,847      58,602      57,383
         ($)




                                                                                                                                                           DRAFT
                                                                                                                                                            RARC-WP-XX-XXX
         Revenue




                                                                                                                                                             RARC-WP-13-007
         Shortfall ($)     0        1,519       3,052       4,601       6,166       7,749       9,351       10,972      12,615      14,280      15,968
         (-)




                                                                                                                                                                April 12, 2013
                                                                                                                                                                 June 7, 2012
                                                                                                                                                           Revisiting the CPI-Only Price Cap Formula
                                                                                                                                                           U.S.
                                                                                                                                                           Revisiting
                                                                                                                                                           U.S. Postal Service Office of Inspector General
     Table 18 demonstrates that revenues cover costs (given a break-even start) with CPI-only increases if volume grows at
     the same rate delivery points; the optimistic volume projection. This situation is the implied assumption of the price cap.




                                                                                                                                                                Postalthe
                Table 18: Revenues Cover Costs with an Optimistic Assumption of 1.1 Percent Revenue Weighted Volume Growth




                                                                                                                                                                       Service
                                        (Matching Delivery Point Growth) under a CPI-only Price Cap




                                                                                                                                                                          CPI-Only
                          2010       2011        2012        2013        2014        2015        2016        2017        2018        2019        2020




                                                                                                                                                                               Office
         Delivery
                          151.0     152.5       154.0       155.6       157.1       158.7       160.3       161.9       163.5       165.1       166.8
         Points




                                                                                                                                                                                    Price
         Mail




                                                                                                                                                                                      of Inspector
                         168,322   170,005.2   171,705.3   173,422.3   175,156.5   176,908.1   178,677.2   18,0464     182,268.6   184,091.3   185,932.2
         Volume




                                                                                                                                                                                          Cap Formula
         Institutional
         Cost per
         Delivery        197.26     201.20      205.23      209.33      213.52      217.79      222.14      226.59      231.12      235.74      240.46
         Point ($)




                                                                                                                                                                                                   General
         VV Cost
         per Mail         0.244     0.249       0.254       0.259       0.264       0.269       0.274       0.280       0.286       0.291       0.297
         Piece ($)
         Total
         Institutional
         Cost ($)        29,786    30,685.54   31,612.24   32,566.93   33,550.45   34,563.68   35,607.5    36,682.84   37,790.67   38,931.94   40,107.69
57




         Total
         Volume ($)
                         41,020    42,258.8    43,535.02   44,849.78   46,204.24   47,599.61   49,037.12   50,518.04   52,043.68   53,615.4    55,234.59
         Variable
         Cost
         Total Cost
                         70,806    72,944.34   75,147.26   77,416.71   79,754.69   82,163.28   84,644.62   87,200.88   89,834.35   92,547.35   95,342.28
         ($)
         Revenue
         per Piece        0.421     0.429       0.438       0.446       0.455       0.464       0.474       0.483       0.493       0.503       0.513
         ($)
         Total
         Revenue         70,806    72,944.34   75,147.26   77,416.71   79,754.69   82,163.28   84,644.62   87,200.88   89,834.35   92547.35    95,342.28
         ($)
         Revenue




                                                                                                                                                           DRAFT
                           ---        ---         ---         ---         ---         ---         ---         ---         ---         ---         ---




                                                                                                                                                            RARC-WP-XX-XXX
         Shortfall ($)




                                                                                                                                                             RARC-WP-13-007
         (-)




                                                                                                                                                                April 12, 2013
                                                                                                                                                                 June 7, 2012
